 D-2007-115                     August 9, 2007




Army Information Technology Enterprise Solutions-2
                Services Contract
  Additional Information and Copies

  The Department of Defense Office of the Deputy Inspector General for Auditing,
  Acquisition and Contract Management prepared this report. If you have questions
  or would like to obtain additional copies of this report, visit the Web site of the
  Department of Defense Inspector General at http://www.dodig.mil/audit/reports or
  contact the Secondary Reports Distribution Unit at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CFR                   Code of Federal Regulations
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IDIQ                  Indefinite-Delivery, Indefinite-Quantity
IT                    Information Technology
ITEC4                 Information Technology, E-Commerce, and Commercial
                        Contracting Center
ITES-2H               Information Technology Enterprise Solutions-2 Hardware
ITES-2S               Information Technology Enterprise Solutions-2 Services
ITES-EMS3             Information Technology Enterprise Solutions-Enterprise Mission
                        Support Services Solutions
NAICS                 North American Industry Classification System
SBA                   Small Business Administration
SIC                   Standard Industrial Classification
                              INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704




                                                                           August 9, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Anny Infonnation Technology Enterprise Solutions-2 Services
         Contract (Report No. D-2007-1l5)


      Weare providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result ofmanagement comments, we revised Recommendation I.e. Therefore, we
request that the Assistant Secretary ofthe Army (Acquisition, Logistics, and Technology)
provide comments on Recommendations 1.a., 1.b., and I.c. by September 9, 2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions Should be directed
to Ms. Jacqueline L. Wicecarver at at (703) 604-9077 (DSN 664-9077) or
Mr. Sean A. Davis at (703) 604-9049 (DSN 664-9049). See Appendix C for the report
distribution. The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:




                                           Richard B. Jolliffe

                                     Assistant Inspector General

                                 Acquisition and Contract Management

               Department of Defense Office of Inspector General
Report No. D-2007-115                                                     August 9, 2007
  (Project No. D2006-D000AS-0173.000)

                  Army Information Technology Enterprise 

                       Solutions-2 Services Contract 


                                Executive Summary 


Who Should Read This Report and Why? Contracting personnel from the Army and
other Federal agencies who are involved in information technology service acquisition
decisions should read this report because it provides an assessment of how the Army can
improve small business participation in indefinite-delivery, indefinite-quantity (IDIQ)
contracts.

Background. We initiated the audit of the Army Information Technology Enterprise
Solutions-2 Services (ITES-2S) contract because of the material impact this contract will
have on the acquisition of information technology resources within DoD and the Federal
Government. According to the Army Information Technology, E-Commerce, and
Commercial Contracting Center, the ITES-2S contract is a follow-on to its Information
Technology Enterprise Solutions-Enterprise Mission Support Services Solutions IDIQ
contract. The ITES-2S contract has a ceiling price of $20 billion. The contract has a
3-year base period with three 2-year option periods. The purpose of the ITES-2S
contract is to support the Army enterprise infrastructure and infostructure goals with
information technology services worldwide. The U.S. Army, DoD, and all other Federal
agencies will be authorized to fulfill requirements under the ITES-2S contract.

Results. The Army Information Technology, E-Commerce, and Commercial Contracting
Center contracting officials did not justify consolidating contract requirements for the
$20 billion ITES-2S contract. Additionally, the officials selected an inappropriate North
American Industry Classification System (NAICS) code in the solicitation of the
contract. As a result, ITES-2S is a bundled contract that improperly restricted small
business competition and was unsuitable for small business award. Bundling a contract
without justification violates United States Code and Federal regulations. (See the
Finding section of the report for the detailed recommendations.) The Army Contracting
Agency internal controls were not adequate. We identified material internal control
weaknesses on the adherence of the ITES-2S contract NAICS code to the Federal
Acquisition Regulation requirements.

In a memorandum, “Information Technology Enterprise Solutions-2 Services Contract,”
December 8, 2006, we requested that the Assistant Secretary of the Army for
Acquisition, Logistics, and Technology halt all ITES-2S contracting activity and future
task orders until after the problems identified in this report are resolved.

Management Comments and Audit Response. We received comments from the
Assistant Secretary of the Army for Acquisition, Logistics, and Technology who
responded on behalf of the Director, Army Contracting Agency. He nonconcurred based
on the broad scope of the ITES-2S requirements, the nature of the work performed, the
pre-approval of the NAICS code, and small business participation. Specifically, the
Assistant Secretary stated that selecting a NAICS code based on the procedures outlined
in Federal Acquisition Regulation 19.102, “Size Standards,” poses a challenge for IDIQ
contract vehicles because of the extremely broad scope and the fact that there are no
definitized requirements until task orders are issued. He stated the contracting officer
considered the nature of work and contended that the type of work to be performed is not
the only consideration and quoted Title 13 Code of Federal Regulations
Section 121.402(b) (2006), “Size Eligibility Requirements for Government
Procurement.” In addition, he stated that the NAICS code 517110 was approved by the
U.S. Army and DoD Small and Disadvantaged Business Utilization offices and the Small
Business Administration. The Assistant Secretary stated that the selected code did not
preclude smaller businesses from submitting proposals.

In response, we stated that the use of an IDIQ contract requires the contracting officer to
identify a recurring need. If the contracting officer could not reasonably describe the
types of services or supplies she was intending to acquire under ITES-2S, then this type
of contract should not have been utilized. The contracting officer may have considered
the nature of work when selecting the NAICS code, but ultimately her deductions were
incorrect when selecting the NAICS code. The primary factors for selecting a NAICS
code are the principal purpose of the products or services being acquired and the products
or services accounting for the greatest percentage of the contract price. We do not
believe these approvals prove a correct NAICS code was selected. NAICS code 517110
has the largest size standard allowed by the Small Business Administration, and no
income limitation is placed on NAICS code 517110. Therefore, businesses receiving up
to approximately $700 million in yearly revenue can qualify as a small business under
NAICS code 517110.

The Assistant Secretary nonconcurred and stated that specific requirements have not been
pre-defined under ITES-2S, requirements are performed at the task order level, the
acquisition plan was approved, information technology services were not consolidated,
and small businesses were not deprived of participation. Specifically, he stated that
ITES-2S is an IDIQ vehicle with no specific, pre-defined requirements; therefore, a
consolidation justification is not required by Defense Federal Acquisition Regulation
Supplement 207.170-2, “Definitions,” at the contract level. In response, we stated that
Defense Federal Acquisition Regulation Supplement 207.170, “Consolidation of Contract
Requirements,” is clearly applicable to the ITES-2S acquisition. Multiple-award task
order contracts, to include ITES-2S, fall under the scope of Defense Federal Acquisition
Regulation Supplement 207.170.

The Assistant Secretary nonconcurred and disagreed because the ITES-2S contract is not
consolidated, bundling determination applies at the task order level, the Government
Accountability Office Competition and Contracting Act rulings justify consolidation, and
small businesses did not receive a competitive disadvantage. Specifically, the Assistant
Secretary contended that ITES-2S is not a bundled contract because ITES-2S does not
consolidate contract requirements. However, we stated that Defense Federal Acquisition
Regulation Supplement 207.170, “Consolidation of Contract Requirements,” is
applicable; therefore, the ITES-2S contract does constitute consolidation.

Based on management comments, we revised the recommendation regarding
re-competing the ITES-2S contract or justifying the contract bundling if small business
participation is not warranted at the prime contract level. It was revised because it is no
longer reasonable for the U.S Army to re-compete the ITES-2S base contract.



                                             ii
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology
concurred with the recommendation that the Director, Army Small and Disadvantaged
Business Utilization develop a standardized contract review process for small business
that verifies compliance with the Federal Acquisition Regulation requirements. The
comments were responsive to the recommendation.

We request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments on the revised recommendation in response to the final
report by September 9, 2007. See the Finding section of the report for a discussion of
management comments on the recommendations and the Management Comments section
of the report for the complete text of the comments.




                                           iii
Table of Contents 


Executive Summary                     i


Background                            1


Objective                             2


Review of Internal Controls           2


Finding 

      Small Business Participation    3


Appendixes
      A. Scope and Methodology       35 

      B. Other Matters of Interest   37 

      C. Report Distribution         39 


Management Comments
      Department of the Army         41 

Background 

    We initiated the audit of the Army Information Technology Enterprise Solutions-
    2 Services (ITES-2S) contract because of the material impact this contract will
    have on the acquisition of information technology (IT) resources within DoD and
    the Federal government. The ITES-2S contract is a multiple-award, indefinite-
    delivery, indefinite-quantity (IDIQ) contract. The ceiling of the ITES-2S contract
    is $20 billion over a 9-year period, which includes a 3-year base period and three
    2-year option periods. According to contracting personnel, the ITES-2S
    acquisition will replace the Army’s Information Technology Enterprise
    Solutions-Enterprise Mission Support Services Solutions (ITES-EMS3) contract,
    which is approaching its ceiling of $500 million. The ITES-2S contract will be
    available to all DoD and Federal agencies.

    Contract Management. Army Contracting Agency, Information Technology
    E-Commerce and Commercial Contracting Center (ITEC4) originally awarded
    the ITES-2S contract on April 14, 2006, to 11 contractors, consisting of 8 large
    businesses and 3 small businesses. The eight large businesses included: Booz
    Allen Hamilton, Incorporated; CACI International, Incorporated; Computer
    Sciences Corporation; EDS Corporation; General Dynamics Corporation; IBM
    Corporation; Lockheed Martin Corporation; and Science Applications
    International Corporation. The three small businesses included: Apptis,
    Incorporated; STG, Incorporated; and QSS Group, Incorporated. The Army
    Small Computer Program and Program Executive Office-Enterprise Information
    System manage the ITES-2S contract.

    Government Accountability Office Protests. On May 5, 2006, five businesses
    (Multimax, Incorporated; NCI Information Systems, Incorporated; BAE Systems
    Information Technology LLC; Northrop Grumman Information Technology,
    Incorporated; and Pragmatics, Incorporated) filed formal protests with the
    Government Accountability Office (GAO). The Army advised GAO that they
    failed to account for all information received during discussions with the
    contractors when evaluating performance risk. As a result, the Army withdrew
    the awards and GAO dismissed the protests on May 12, 2006. Army officials
    reviewed the awards and re-awarded the contract to the initial 11 contract winners
    on July 13, 2006. After the contract was re-awarded, the same five businesses
    filed a second round of protests with GAO in July 2006 on the basis of
    unreasonable evaluation of labor rates and inadequate discussions. In October
    2006, GAO sided with the five protestors and recommended that the Army reopen
    discussions with the protestors and request revised proposals. Additionally, GAO
    recommended that the five protestors be reimbursed for their costs of filing and
    pursuing their protests, including reasonable attorney’s fees. In November 2006,
    the Army settled with the five businesses by allowing these businesses to join the
    contract as prime contractors.

    Contract Scope. ITES-2S is a multiple-award, task order contract intended to
    support the Army enterprise infrastructure and infostructure goals with IT
    services worldwide. The scope of the contract encompasses all requirements for
    IT service solutions; telecommunication and net-centric enterprise management
    requirements not covered by Installation Information Infrastructure


                                        1

     Modernization Program and Command, Control, Communications, Computers,
     and Information Management requirements; and related hardware and software
     required to provide complete end-to-end solutions. ITES-2S will also satisfy
     worldwide development, deployment, operation, maintenance, and sustainment
     requirements for the Army. This contract is intended to provide IT excellence
     through IT services and related equipment that meet the automation needs of the
     Army and other customers.

     Interim Audit Results. In a memorandum, “Information Technology Enterprise
     Solutions-2 Services Contract,” December 8, 2006, we requested that the
     Assistant Secretary of the Army for Acquisition, Logistics, and Technology
     (Assistant Secretary) halt all ITES-2S contracting activity and future task order
     awards until after the problems identified in this report are resolved. The
     contracting office had awarded 11 contracts on April 14, 2006, and was in the
     process of awarding additional contracts when we drafted the memorandum. On
     December 4, 2006, prior to receiving our December 8, 2006, memorandum, the
     contracting office awarded 5 additional contracts.


Objective
     Our overall audit objective was to review the acquisition of the ITES-2S contract
     valued at $20 billion. Specifically, we determined whether the acquisition was
     consistent with Federal and DoD acquisition and contracting policy, to include
     information assurance requirements. We determined that the ITES-2S contract
     met all Federal Government and DoD Information Assurance requirements. See
     Appendix A for further discussion of information assurance and for a discussion
     of the scope and methodology. See the Finding for a discussion of the ITES-2S
     contract acquisition.


Review of Internal Controls
     We identified material internal control weaknesses for the Army’s ITES-2S
     contract as defined by DoD Instruction 5010.40, “Managers’ Internal Control
     (MIC) Program Procedures,” January 4, 2006. DoD Instruction 5010.40 states
     that internal controls are the organization, policies, and procedures that help
     program and financial managers to achieve results and safeguard the integrity of
     their programs. The Army Contracting Agency did not have procedures in place
     to ensure the ITES-2S contract was assigned a North American Industry
     Classification System (NAICS) code that best describes the principal nature of the
     services to be acquired, as required by the Federal Acquisition Regulation (FAR).
     Implementing recommendations 1.a., 1.b., and 1.c. will improve the ITES-2S
     contract by allowing proper small business participation. A copy of the final
     report will be provided to the senior official responsible for internal controls for
     the ITES-2S contract.




                                          2

            Small Business Participation 

            Army ITEC4 contracting officials did not justify consolidating contract
            requirements for the $20 billion ITES-2S contract. Additionally, the
            officials selected an inappropriate NAICS code in the solicitation of the
            contract. These conditions occurred because ITEC4 contracting officials
            did not comply with Defense Federal Acquisition Regulation Supplement
            (DFARS) procedures for consolidating contract requirements and did not
            comply with FAR procedures in assigning an appropriate NAICS code in
            the solicitation. As a result, the ITES-2S is a bundled contract that
            improperly restricted small business competition and was unsuitable for
            small business award.


Contract Consolidation Policy
     United States Code. Section 2382, title 10, United States Code, (10 U.S.C.
     2382), states that the Secretary of Defense shall require the Secretary of each
     Military Department to ensure that the decisions made in regard to the
     consolidation of contract requirements are made with a view to provide small
     business concerns with appropriate opportunities to participate in DoD
     procurements as prime contractors and appropriate opportunities to participate in
     such procurements as subcontractors.

     Defense Federal Acquisition Regulation Supplement. DFARS
     Section 207.170, “Consolidation of Contract Requirements,” implements
     10 U.S.C. 2382. DFARS 207.170 defines “consolidation of contract
     requirements” as the
            use of a solicitation to obtain offers for a single contract or a multiple
            award contract to satisfy two or more requirements of a department,
            agency, or activity for supplies or services that previously have been
            provided to, or performed for, that department, agency, or activity
            under two or more separate contracts.

     The DFARS states that “agencies shall not consolidate contract requirements with
     an estimated total value exceeding $5.5 million unless the acquisition strategy
     includes—

            (1) The results of market research;

            (2) Identification of any alternative contracting approaches that would
                involve a lesser degree of consolidation; and

            (3) A determination by the senior procurement executive that the
                consolidation is necessary and justified.”

     Deputy Secretary of Defense Memorandum. A memorandum signed by the
     Deputy Secretary of Defense, “Consolidation of Contract Requirements,”
     October 28, 1996, states that when planning for the consolidation of several


                                                3

    contracts or requirements into a single larger contract, consideration must be
    given to the impact on small businesses, small disadvantaged businesses, and
    small women-owned businesses. The memorandum further states that
    requirements should be packaged so as not to preclude performance by small,
    small disadvantaged, and small women-owned business concerns as prime
    contractors unless the consolidation will result in significant benefits in terms of
    reduced life cycle costs, improved services, or both, and any such determination
    should be supported by market research analysis.


Consolidation of Contract Requirements
    ITEC4 contracting officials did not justify consolidating contract requirements in
    the preparation of the ITES-2S contract. ITES-2S is a $20 billion multiple-award
    contract that will satisfy multiple requirements for IT services that have
    previously been provided to the Army under separate smaller contracts.

    ITES-2S Contract Proposal. The purpose of ITES-2S is to support the Army
    enterprise infrastructure and infostructure goals with IT services worldwide, and
    the scope encompasses all requirements for IT service solutions. The acquisition
    plan states that it is the intention of the Government to establish a scope that is
    broad, sufficiently flexible to satisfy requirements that may change over the
    period of performance, and fully comprehensive so as to embrace the full
    complement of services that relate to IT. The ITES-2S scope of work categorizes
    IT service solutions into task and sub-task areas. Nine task areas and over 80 sub-
    task areas are listed. Additionally, according to the ITES-2S solicitation, the list
    is not all inclusive and additional sub-task areas can be added when task orders
    are issued. One requirement cannot encompass worldwide IT service solutions
    that include a broad range of task and sub-task areas. Furthermore, the
    acquisition plan and solicitation frequently use the plural word “requirements”
    and not the singular word “requirement” when referring to what is to be acquired
    under ITES-2S.

    Previous Contract. ITEC4 contracting officials stated that ITES-2S is a
    replacement for ITES-EMS3 and the requirements for ITES-2S are substantially
    the same as for ITES-EMS3. However, there are significant differences between
    the two contracts in terms of ceiling price and volume of task areas.

           •	 The ITES-EMS3 contract has a $500 million ceiling, whereas the
              ITES-2S has a $20 billion ceiling.

           •	 The ITES-EMS3 solicitation contains 14 task areas and no sub-task
              areas, whereas the ITES-2S solicitation contains a total of 95 task and
              sub-task areas.

    Therefore, the ITES-2S requirements are different from the ITES-EMS3
    requirements, and contracting officials should have reviewed other Army
    contracting actions to determine whether ITES-2S consolidated the requirements
    previously provided under separate smaller contracts.



                                          4

        Although ITES-EMS3 did not specifically fall within the scope of this audit, it
        could have also consolidated requirements. Therefore, the ITEC4 contracting
        officials cannot avoid consolidation consideration just because they consider
        ITES-2S a follow-on contract to the ITES-EMS3.

        Contract Requirements on Other Army Contracts. We identified Army
        solicitations for IT services by using the search engine within FedBizOpps.1 Our
        search results identified hundreds of Army solicitation notices from March 2004
        through February 2007 that solicited for IT services that were within the scope of
        the ITES-2S contract. Therefore, the Army was satisfying multiple requirements
        for IT services through separate smaller contracts. Many of these requirements
        for IT services that were previously provided to the Army are now consolidated
        under ITES-2S.


Justification for Contract Consolidation
        The ITES-2S acquisition plan states that the ITES-2S procurement does not
        involve consolidating requirements. In addition, the plan states that “no
        requirements have been identified for performance under ITES-2S to satisfy two
        or more requirements for an activity that were previously performed for the
        activity under two or more separate contracts lower in cost than the total cost
        estimated for ITES-2S.” However, we determined that ITES-2S consists of
        multiple requirements and has consolidated these requirements under one
        contracting vehicle.

        Contracting officials did not follow DFARS procedures by consolidating contract
        requirements without conducting market research to determine whether the
        consolidation was necessary and justified. DFARS states that market research
        may indicate that consolidation of contract requirements is necessary and justified
        if the benefits of the acquisition strategy substantially exceed the benefits of each
        of the possible alternative contracting approaches. ITEC4 contracting officials
        did not identify alternative contracting approaches that involved a lesser degree of
        consolidation and did not perform a benefit analysis to determine whether
        consolidation would result in significant benefits. Additionally, ITEC4
        contracting officials did not identify significant benefits the Army would receive
        in consolidating requirements as opposed to utilizing alternative approaches.
        Furthermore, DFARS 207.170-3, “Policy and Procedures,” requires that the Army
        senior procurement executive review and determine whether contract
        consolidation is necessary and justified. The ITEC4 contracting officials did not
        request that the senior procurement executive determine that the consolidation
        was necessary and justified for ITES-2S.




1
 FedBizOpps is the single Government on-line point-of-entry for Federal Government procurement
opportunities over $25,000. Government buyers are able to publicize their business opportunities by
posting information directly to FedBizOpps via the Internet.



                                                    5

NAICS and Size Standards Background
    Small Business Codes and Size Standards. The NAICS is used in the
    classification of business establishments. The system was developed for the
    United States, Canada, and Mexico, the three countries that participate in the
    North American Free Trade Agreement. In classifying nearly 1,200 industries,
    the NAICS provides Government and business analysts the ability to directly
    compare industrial production statistics collected and published across the three
    countries.

    The Small Business Administration (SBA), as mandated in the Small Business
    Act, establishes the numerical definition of small business on an industry-by-
    industry basis. The numerical definition is referred to as a “size standard” and is
    stated in either number of employees or average annual receipts. The SBA
    assigns size standards to each of the industries identified in the NAICS. The size
    standards define the maximum size a business can be within an industry and still
    be considered a small business. According to the “Guide to SBA’s Definitions of
    Small Business,” contracting officers will designate, as part of solicitations, the
    NAICS code and corresponding size standard that represents the goods or
    services being procured.

    Size Standard Policy. The Code of Federal Regulations (13 C.F.R. Part 121),
    “Small Business Size Regulations,” (2006) states that the SBA size standards
    define whether a business entity is small, and thus, eligible for Government
    programs and preferences reserved for small business concerns. Further, the
    regulation states that a concern must not exceed the size standard for the NAICS
    code specified in the solicitation. The procuring agency contracting officer
    should designate the NAICS code that best describes the principal purpose of the
    product or service being acquired. A procurement should be classified according
    to the component that accounts for the greatest percentage of contract value.

    FAR Subpart 19.102, “Size Standards,” prescribes policies and procedures for
    identifying the NAICS code and the correlating size standard for the services
    being acquired. The FAR states that small business size standards are applied by
    classifying the product or service being acquired in the industry, whose definition,
    as found in the NAICS manual, best describes the principal nature of the product
    or service being acquired. In addition, the FAR states that for size standard
    purposes, a product or service shall be classified in only one industry, whose
    definition best describes the principal nature of the product or service being
    acquired even though for other purposes it could be classified in more than one.
    Further, the FAR states that when acquiring a service that could be classified in
    two or more industries with different size standards, contracting officers shall
    apply the size standard for the industry accounting for the greatest percentage of
    the contract price.

    Government-Wide Small Business Goals. The Government-wide small
    business prime contracting goal is 23 percent (as cited in 15 U.S.C. 644).
    Therefore, as mandated by law, Government agencies must strive to award
    23 percent of all prime contracting dollars to small businesses.



                                         6

ITES-2S Contract Award 

    Army’s ITEC4 contracting officials did not properly consider appropriate small
    businesses for participation in the $20 billion ITES-2S contract award. The FAR
    states that the size standard is assigned by classifying the services being acquired
    in the industry that best describes those services. ITES-2S is for the acquisition
    of IT services, but instead of selecting a NAICS code that describes an industry
    that performs IT services, contracting officials selected a NAICS code that
    describes an industry that performs the functions of a telephone company.

    The ITES-2S scope encompasses all requirements for IT service solutions,
    including a wide range of tasks pertaining to IT services. The acquisition plan
    states that the ITES-2S contract is predominately for services, with incidental
    hardware and software. The Army Small Computer Program office is currently
    soliciting a separate contract, Information Technology Enterprise Solutions-2
    Hardware (ITES-2H), to acquire hardware in support of Army requirements. (See
    Appendix B for Other Matters of Interest on this contract).

    NAICS Code Comparisons. The Independent Government Cost Estimate
    prepared by ITEC4 officials lists the labor categories associated with the ITES-2S
    contract, as well as the estimated dollars to be spent over the life of the contract
    for each of these labor categories. The vast majority of the labor categories and
    estimated associated costs were in some degree related to IT services. For
    example, the labor categories are organized in the following sections:

       •   program and project management,
       •   quality assurance,
       •   IT systems architecture,
       •   application systems, 

       •   operations and logistics,

       •   information assurance,
       •   system administration,
       •   data administration,
       •   data warehousing,
       •   help desk/end user support,
       •   Internet/Web operations,
       •   network administration/support,
       •   documentation,
       •   enterprise resource planning/business process development, and
       •   information systems training.


    Additionally, the task areas listed in the ITES-2S statement of objectives are:

       •   business process reengineering;
       •   information systems security;
       •   information assurance;
       •   IT services;
       •   enterprise design, integration, and consolidation;
       •   education/training;


                                          7

   •	 program/project management;
   •	 systems operation and maintenance; and
   •	 network support.

Conversely, the contracting officials solicited the ITES-2S contract under NAICS
code 517110, “Wired Telecommunications Carriers.” The NAICS manual
defines “Wired Telecommunications Carriers” as the industry engaged in
operating and maintaining switching and transmission facilities to provide point-
to-point communications via landlines, microwave, or a combination of landlines
and satellite linkups or furnishing telegraph and other non-vocal communications
using their own facilities. Corresponding index entries included with the NAICS
definition of “Wired Telecommunications Carriers” are:

   •	   facilities-based telecommunication carriers (except wireless);
   •	   local telephone carriers (except wireless);
   •	   long-distance telephone carriers (except wireless);
   •	   telecommunications carriers, wired;
   •	   telecommunications networks, wired;
   •	   telegram services (except wireless);
   •	   telephone carriers, facilities-based (except wireless); and
   •	   telephone installation by telecommunications carriers, wired.

The definition and corresponding index entries for the NAICS code assigned to
the ITES-2S contract by contracting officials pertain to activities associated with
telephone companies such as AT&T, which focus on providing
telecommunications and local and long-distance telephone service.

NAICS Sub-Sector 541. The NAICS manual contains other codes that better
describe the services being acquired under the ITES-2S contract. ITEC4 officials
stated that ITES-2S will be used to acquire skills and expertise in the field of IT
services. Similarly, NAICS sub-sector 541, “Professional, Scientific, and
Technical Services,” contains codes that reflect industries that have production
processes that are almost wholly dependent on worker skills. Further, the
definition of sub-sector 541 states that in most of these industries, equipment and
materials are not of major importance; instead, these industries sell expertise.
Specifically, IT services are classified under NAICS section 54151, “Computer
Systems Design and Related Services.” NAICS section 54151 is defined as the
industry that is composed of establishments primarily engaged in providing
expertise in the field of IT through one or more of the following activities:

   •	 writing, modifying, testing, and supporting software to meet the needs of a
      particular customer;

   •	 planning and designing computer systems that integrate computer 

      hardware, software, and communication technologies; 


   •	 on-site management and operation of clients’ computer systems and/or
      data processing facilities; and

   •	 other professional and technical computer-related advice and services.



                                     8

           NAICS section 54151 best describes IT services; a code within this section would
           best represent the industry accounting for the greatest percentage of contract
           price. The following four codes are contained in NAICS sub-sector 541 under
           section 54151:

               •	 541511, “Custom Computer Programming Services;”

               •	 541512, “Computer Systems Design Services;”

               •	 541513, “Computer Facilities Management Services;” and

               •	 541519, “Other Computer Related Services.”

           The small business size standards associated with each of the above NAICS codes
           limit the average total annual income of a qualifying small business to
           $23 million. Therefore, according to the SBA, any business that over the past
           3 years averages more than $23 million in total receipts would not qualify as a
           small business under these NAICS codes.

           In contrast, the NAICS code selected by the contracting officials for the ITES-2S
           contract had an associated small business size standard that limited qualifying
           small businesses to 1,500 employees. In assigning NAICS code 517110 to the
           ITES-2S solicitation, contractors were able to compete for small business reserves
           with no regard to income limitations. This resulted in the selection of the
           following three contractors in the initial ITES-2S small business reserve2 award:

               •	 Apptis, Inc., with approximately 1,480 employees and 2005 revenue of
                  approximately $700 million;

               •	 STG, Inc., with approximately 1,200 employees and 2005 revenue of
                  approximately $170 million; and

               •	 QSS Group, Inc., with approximately 1,400 employees and 2005 revenue
                  of approximately $282 million. However, QSS Group, Inc., was recently
                  acquired by Perot Systems, which has more than 20,000 associates and
                  had annual revenue of $2 billion in 2005. This should impact its small
                  business qualification status.

           Businesses that qualify as being small under NAICS section 54151 best meet the
           definition of the services to be acquired under the ITES-2S contract. However, as
           a result of contracting officials assigning a NAICS code that describes an industry
           unrelated to the ITES-2S contract, inappropriate small businesses were awarded
           prime contracts.




2
    The ITES-2S acquisition was conducted under a full and open competition but up to four awards were
    reserved for small businesses. STG, Inc., and QSS Group, Inc., were awarded contracts reserved for
    small businesses. Apptis, Inc., was considered a small business under NAICS code 517110, but this
    company was awarded the contract under full and open competition.



                                                     9

NAICS Code Selection
    Contracting officials did not comply with the FAR procedures by assigning the
    ITES-2S contract a NAICS code based on the most liberal determination of small
    business size standards, rather than a code that best describes the principal nature
    of the services to be acquired. Contracting officials stated that NAICS
    code 517110 was used because its small business size standard was considered to
    be more liberal. In fact, the associated size standard used by contracting officials
    for the ITES-2S is the largest of all small business size standards established by
    the SBA.

    A memorandum prepared by ITES-2S contracting officials, “NAICS Code
    Determination for ITES-2S,” March 8, 2005, describes how contracting officials
    considered two NAICS codes in determining which would be assigned to the
    ITES-2S contract. The codes considered were 517110, “Wired
    Telecommunications Carriers,” and 541519, “Other Computer Related Services.”
    As documented in the memorandum, contracting officials determined that there
    was no single code that appropriately covers the complexity and the worldwide
    magnitude of the ITES-2S acquisition. Contracting officials stated that NAICS
    code 517110 allowed the most liberal small business threshold, and therefore
    selected this code in order to facilitate proposal opportunities for firms with
    greater technological compatibilities. However, according to the FAR, the size
    standard is assigned by classifying the service being acquired in the industry
    whose definition, as found in the NAICS manual, best describes the principal
    nature of the service being acquired; not by assigning the code that is associated
    with the preferred size standard. IT services will be acquired under ITES-2S.
    However, NAICS code 517110 does not describe an industry that provides IT
    services. Codes within NAICS section 54151, “Computer Systems Design and
    Related Services,” best describe an industry that provides IT services, and
    therefore, a code within section 54151 should have been assigned to ITES-2S. By
    assigning NAICS code 517110 to the ITES-2S solicitation, contracting officials
    disregarded the FAR requirement to select the code that best describes the
    services to be provided.

    Although the Army expects the ITES-2S to replace the smaller ITES-EMS3
    contract, prior to assigning the ITES-2S NAICS code, contracting officials did not
    review the task orders issued under the ITES-EMS3 contract to determine which
    tasks accounted for the greatest percentage of the contract price. The FAR states
    that when acquiring a service that could be classified in two or more industries
    with different size standards, contracting officials must apply the size standard for
    the industry accounting for the greatest percentage of the contract price. When
    asked, contracting officials stated that they did not review the prior contract, nor
    did they perform analysis beyond the memorandum to determine what NAICS
    code accounted for the greatest percentage of the ITES-2S contract price.
    Furthermore, based on our review of the ITES-2S Independent Government Cost
    Estimate, we determined that IT services classified under NAICS codes within
    section 54151, “Computer Systems Design and Related Services,” would account
    for the greatest percentage of the contract price.




                                         10 

    Additionally, in supporting their decision to use NAICS code 517110, contracting
    officials referenced an SBA notice entitled “Standard Industrial Classification
    (SIC) 4813 Clarification,” July 5, 1989. SIC code 4813 is the predecessor to
    NAICS code 517110; the NAICS replaced SIC in 1997. According to the United
    States Census Bureau, the NAICS codes were revised in 2002. The SBA notice
    states that SIC 4813 is appropriate when the telecommunications services
    solicited require in-depth knowledge of the technologies developed by firms
    typically classified in SIC 4813 and when a combination of telecommunications
    services is included in a statement of work evidencing that the intent of the
    procurement is to acquire a telecommunications system. However, the ITES-2S
    acquisition plan states that systems will not be acquired through the ITES-2S
    contract vehicle. Further, SIC 4813 pertains directly to telephone and data
    communications. However, based on the task areas identified in the ITES-2S
    solicitation, IT services, not telephone and data communications, represent the
    primary purpose of the acquisition. In addition, the notice used by contracting
    officials in support of using NAICS code 517110 expired in February 1990, 15
    years prior to the ITES-2S solicitation.

    The NAICS code assigned to the ITES-2S by contracting officials was not
    selected based on the criteria established in the FAR. Instead, contracting
    officials assigned an inappropriate code that allowed businesses that would have
    been considered large if the appropriate code was chosen, to compete for small
    business reserve awards. As a result, no appropriately qualified small businesses
    were awarded ITES-2S prime contracts.


Implications of Consolidation and NAICS on Small Business
    Contract consolidation and the selection of an inappropriate NAICS code both
    precluded appropriately qualified small businesses from participating in ITES-2S.
    As a result, ITEC4 contracting officials also bundled the ITES-2S contract, which
    resulted in a contract that was unsuitable for small business prime contracting
    awards.
    Consolidation. As previously mentioned, the most appropriate small business
    size standard for ITES-2S was for a small business with $23 million in average
    annual receipts. However, small businesses under the $23 million size standard
    threshold were not adequately considered for award for ITES-2S. A
    memorandum prepared by ITES-2S contracting officials, “DD2579, Small
    Business Coordination Record, ITES-2S,” March 19, 2005, identified that small
    businesses with annual receipts of $21 million or below could not provide the
    depth/breadth of task areas required to cover a full spectrum of enterprise
    requirements. Therefore, contracting officials determined that ITES-2S
    requirements were too broad for these small businesses to perform. Even though
    these small businesses could provide for a portion of the requirements, when all
    requirements for IT services became consolidated into one requirement under
    ITES-2S, these small businesses could not compete for contract award.

    Consolidation can preclude small business prime contracting participation by
    combining requirements from previous separate contracts into one requirement


                                        11 

    under a single contract. When the requirements are separated under multiple
    contracts, small businesses have an appropriate opportunity to compete for award.
    However, when the requirements are consolidated into one requirement under one
    contract, the consolidated requirement can be too broad for small businesses to
    perform, and therefore, many small businesses cannot successfully compete for
    the consolidated requirement even though they could successfully perform
    portions of that requirement.

    By consolidating requirements under ITES-2S, the scope of work became too
    broad for appropriately qualified small businesses to successfully compete for
    prime contract awards. Additionally, no portion of the work was set aside for
    small businesses. As a result, small businesses under the $23 million size
    standard were not afforded an appropriate opportunity to compete for prime
    contract awards as mandated in 10 U.S.C. 2382.

    NAICS Code Selection. As a result of the contracting office’s selection of an
    incorrect NAICS code, appropriately qualified small businesses were not
    provided a fair opportunity to compete for ITES-2S prime contracts. Further,
    businesses that should have been considered large were inappropriately awarded
    small business award reserves, while appropriately qualified businesses were left
    to unsuccessfully compete against businesses up to 30 times their size in terms of
    annual revenue.

    Additionally, as a result of inappropriately awarding small business award
    reserves to businesses that should be considered large, future task orders awarded
    to these businesses will incorrectly be reported toward small business
    achievements.

    Contract Bundling. By consolidating requirements, the scope of work became
    too broad for appropriately qualified small businesses to successfully compete for
    prime contract awards. Furthermore, by selecting an incorrect NAICS code,
    appropriately qualified small businesses were not provided a fair opportunity to
    compete for small business award reserves. The combination of these factors
    makes ITES-2S a bundled contract.


Bundling Policy
    Federal Acquisition Regulation. FAR Subpart 2.1, “Definitions,” and
    Subpart 7.1, “Acquisition Plans,” address contract bundling. The FAR defines
    “bundling” as the consolidation of “two or more requirements for supplies or
    services, previously provided or performed under separate smaller contracts, into
    a solicitation for a single contract that is likely to be unsuitable for award to a
    small business concern.” The FAR states that “bundling may provide substantial
    benefits to the Government; however, due to the potential impact on small
    business participation, the head of the agency must conduct market research to
    determine whether bundling is necessary and justified.” “Market research may
    indicate that bundling is necessary and justified if an agency or the Government
    would derive measurably substantial benefits.” The benefits should be quantified
    in the market research.


                                        12 

    United States Code. According to 15 U.S.C. 631, “each Federal agency, to the
    maximum extent practicable, shall avoid unnecessary and unjustified bundling of
    contract requirements that preclude small business participation in procurements
    as prime contractors.” In reference to contract bundling, 15 U.S.C. 644 states that
    “before proceeding with an acquisition that could lead to a contract containing
    consolidated procurement requirements, the head of an agency should conduct
    market research to determine whether consolidation of the requirements is
    necessary and justified.”

    Memorandum for Service Acquisition Executives Directors, Defense
    Agencies. According to the memorandum signed by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics, “Small Business
    Participation in Consolidated Contracts,” January 17, 2002, each proposed
    contract award must be evaluated against the FAR criteria for bundled
    requirements. In addition, the memorandum states that, in order to proceed with a
    bundled contract, there must be measurably substantial benefits as defined in the
    FAR. In this case, FAR 7.107(e), “Additional Requirements for Acquisitions
    Involving Bundling,” states substantial bundling is any bundling that results in a
    contract or order that meets or exceeds $7 million, as required by DoD. The
    memorandum goes on to state, if substantial bundling occurs, the agency must
    quantify the benefits and explain how they would be measurably substantial.


Bundling Determination
    The ITES-2S acquisition plan states that the ITES-2S acquisition was analyzed
    using the six criteria identified in the “Department of Defense, Office of Small
    and Disadvantaged Business Utilization, Benefit Analysis Guidebook” in
    determining whether the ITES-2S contract was bundled. The six criteria are
    derived from the definition of bundling in the FAR and public law. The
    guidebook contains the flowchart that follows, which outlines the six bundling
    criteria.




                                        13 

Decision Flowchart for Determining Whether a Contract Is Bundled




*SB = Small Business.

In a memorandum, “Bundling Determination for Information Technology
Enterprise Solutions-2 Services (ITES-2S),” June 20, 2005, contracting officials
stated that when applying the six criteria identified above, three of the criteria
were not met; therefore, the contract was not considered to be bundled. However,
using the same flowchart process, we determined that the contract is indeed
bundled. Below is a discussion of each of the six criterion as they relate to the
ITES-2S contract.

    1. Are two or more requirements consolidated?

        ITEC4 Analysis: Contracting officials stated that ITES-2S is not
        consolidating two or more requirements and that the ITES-2S contract is a
        follow-on to the ITES-EMS3.




                                    14 

   Audit Analysis: As explained previously in this report, ITES-2S does
   consolidate two or more requirements. Therefore, ITES-2S meets this
   criterion.

2.	 Did a small business previously perform any of the requirements?

   ITEC4 Analysis: Contracting officials stated that ITES-EMS3 is being
   performed by two small businesses.

   Audit Analysis: Two small businesses were awarded ITES-EMS3
   contracts. Even though this criterion is met because small businesses were
   awarded ITES-EMS3 contracts, we further note that many of the Army
   solicitations for IT services identified at FedBizOpps were completely set
   aside for participation by small businesses that qualify under the
   $23 million size standard.

3.	 Could a small business have performed any of the requirements?

   ITEC4 Analysis: Contracting officials stated that this criterion is not
   applicable, because it was previously performed by small businesses.

   Audit Analysis: As shown in the flowchart, if criterion number 2 is met,
   criterion number 3 is not applicable. However, even if criterion number 2
   were not met, small businesses could have performed some of the
   requirements, thereby meeting criterion number 3. Aside from the
   ITES-EMS3, other contracts that address requirements identified in the
   ITES-2S contract have been performed by small businesses. The
   following are examples of IT contracts that allow small business
   participation and contain requirements similar to some of those found in
   the ITES-2S contract:

           •	 Encore Information Technology Solutions Contract, Defense
              Information Systems Agency;

           •	 Minority Institutions Technology Support Services II Contract,
              Defense Information Systems Agency; and

           •	 Streamlined Technology Acquisition Resources for Services
              Contract, General Services Administration.

4.	 Will the solicitation result in a single contract?

   ITEC4 Analysis: Contracting officials stated that the ITES-2S contract
   will result in the award of multiple IDIQ contracts.

   Audit Analysis: In the context of bundling, the FAR states that a “single
   contract” includes multiple awards of IDIQ contracts under a single
   solicitation for the same or similar supplies or services to two or more
   sources. Therefore, the ITES-2S contract meets this criterion.

5.	 Will contract performance occur in the United States?


                                15 

                    ITEC4 Analysis: Contracting officials stated that ITES-2S performance
                    will occur both in the U.S. and abroad. Therefore, the ITES-2S meets this
                    criterion.

                    Audit Analysis: The ITES-2S contract includes worldwide requirements.

                6.	 Is the proposed contract likely to be unsuitable for award to a small
                    business?

                    ITEC4 Analysis: Contracting officials stated that “awards under the
                    ITES-2S are not ‘unsuitable for award to a small business.’ ”

                    Audit Analysis: By assigning an incorrect NAICS code to the ITES-2S,
                    contracting officials improperly awarded small business reserves to
                    businesses not categorized as small per the appropriate NAICS code.
                    Therefore, no appropriately qualified small businesses were awarded
                    ITES-2S contracts. In addition, the broad scope, large ceiling price, and
                    geographical dispersion of the ITES-2S contract further restricts small
                    business participation. As a result, the contract meets this criterion of
                    being unsuitable for small business award.

           The ITES-2S contract is bundled because it meets all of the applicable bundling
           criteria; therefore, as required by 15 U.S.C. 644 and FAR Subpart 7.1, bundling
           justification is required. However, because contracting officials determined that
           ITES-2S was not a bundled contract, no steps were taken to justify the bundling.
           The negative impacts of contract bundling have been cited by both the Office of
           Federal Procurement Policy and the SBA. Bundling decreases contracting
           opportunities for small businesses and can hurt the Government through a reduced
           supplier base. A report3 by the Office of Federal Procurement Policy notes that
           substantially fewer small businesses are receiving Federal contracts as result of an
           increase in contract bundling. According to a report4 prepared for SBA, the larger
           number of tasks required for fulfilling bundled contracts and the consequent
           increase in dollar size of these contracts favor large businesses and larger small
           businesses while inhibiting the ability of small or new firms to bid on and win
           Federal contracts. Additionally, this report notes that as bundled contracts
           increase in number and size, small businesses’ contract and dollar shares decline.
           This report estimated that for every additional $100 awarded on a bundled
           contract there was a decrease of $12 awarded to small businesses. Although it
           was not within the scope of this audit to determine the aggregate effects of
           contract bundling, the negative effects have been noted by other Government
           agencies, and Federal regulations are written in a manner as to ensure contracts
           are not bundled unless the Government will obtain measurably substantial
           benefits from doing so.



3
    Office of Federal Procurement Policy, “Contract Bundling, A Strategy for Increasing Federal Contracting
    Opportunities for Small Business,” October 2002.
4
    Office of Advocacy, U.S. Small Business Administration, “The Impact of Contract Bundling on Small
    Business FY 1992 – FY 2001,” October 2002.



                                                      16 

Alternative Approaches
    If ITEC4 contracting officials had determined the appropriate NAICS code, they
    would have realized that the contract was bundled, and could have taken
    proactive steps to alleviate the situation. Officials could have taken the following
    proactive steps:

       •   severed the requirements into smaller acquisitions,

       •   set aside an appropriate portion of the contract for small businesses, or

       •   properly justified the need to keep the contract bundled.

    The General Services Administration is soliciting a similar IT services contract
    with a ceiling price that could potentially reach $65 billion. However, unlike the
    ITES-2S contract, the General Services Administration has separated the
    requirement into two contracts, one for small business and one for large business.
    Additionally, the General Services Administration assigned NAICS code 541512,
    “Computer Systems Design Services,” for both large and small business
    contracts.


Summary
    Army contracting officials did not give proper consideration to small business
    participation in the ITES-2S contract award. In selecting a NAICS code for the
    ITES-2S solicitation, contracting officials disregarded FAR requirements to make
    the selection based on the code definition that best described the services to be
    acquired and instead selected a code that allowed for the most liberal
    determination of small business size standards. As a result, businesses that should
    have been considered large were inappropriately awarded prime contracts
    reserved for small businesses. Further, contracting officials did not comply with
    DFARS procedures for consolidating contract requirements without justification.
    The consolidation of contract requirements and lack of participation by
    appropriately qualified small businesses resulted in the ITES-2S contract being
    considered bundled. Bundling a contract without justification violates 15 U.S.C.
    644 and FAR Subpart 7.1.


Management Comments on the Finding and Audit Response
    In a memorandum, “Information Technology Enterprise Solutions-2 Services
    Contract,” December 8, 2006, we requested that the Assistant Secretary of the
    Army for Acquisition, Logistics, and Technology delay the award of the ITES-2S
    contract until after the problems identified in this report were resolved. We did
    not receive the Assistant Secretary’s response, dated January 17, 2007, until May
    23, 2007, after we repeatedly requested comments to the draft report.



                                         17 

    In the January 17, 2007, memorandum, the Assistant Secretary stated that it was
    not possible for the U.S. Army to comply with our request to delay the award, as
    all of the ITES-2S contracts were awarded prior to receipt of the December 8,
    2006, memorandum. He added that 11 awards were made on April 14, 2006, and
    an additional 5 awards were made on December 4, 2006. The Assistant Secretary
    stated that the U.S. Army disagrees with our analysis of the NAICS code issue.

    We are responding to these comments through our response to the Assistant
    Secretary’s comments to the recommendations, because we did not receive these
    comments until after issuance of the draft report. According to the Assistant
    Secretary in the January 17, 2007, memorandum, there was not a single code that
    covered the complexity and magnitude of the ITES-2S acquisition; therefore, the
    U.S. Army’s contracting officer made the most appropriate choice among the
    possible codes. He added that according to 13 C.F.R. Section 121.402(b) (2006),
    the type of work performed is not the only consideration in choosing the NAICS
    code. Other factors to consider include previous Government procurement
    classifications of the same or similar products or services, and the classification
    that would best serve the purposes of the Small Business Act. The Assistant
    Secretary stated that any small business was allowed to compete, and the Army
    did not receive any proposals from small businesses that would have qualified
    under a more restrictive size standard. Therefore, he stated there was no
    competitive disadvantage or bundling. According to the Assistant Secretary, any
    challenge to the contracting officer’s choice of NAICS code must be raised within
    10 days of the issuance of the solicitation. Therefore, he stated the NAICS code
    for ITES-2S became final as of September 2005 and is not subject to further
    review.


Recommendations
    Revised Recommendation. The Assistant Secretary of the Army for
    Acquisition, Logistics, and Technology provided management comments on
    behalf of the Director, Army Contracting Agency and the Director, Army Small
    and Disadvantaged Business Utilization. We revised Recommendation 1.c.
    because it is no longer reasonable for the U.S. Army to re-compete the base
    ITES-2S contract because task orders have been awarded and services rendered.
    However, we maintain that the NAICS code used is incorrect and the contract is
    bundled.

    1. We recommend that the Director, Army Contracting Agency take the
    following actions:

           a. Revise the North American Industry Classification System code
    assigned to the Information Technology Enterprise Solutions-2 Services
    contract to an appropriate code defined in the North American Industry
    Classification System manual under section 54151, “Computer Systems
    Design and Related Services.”

    Management Comments. The Assistant Secretary of the Army for Acquisition,
    Logistics, and Technology, responding for the Director, Army Contracting


                                        18 

Agency, nonconcurred with the recommendation. The Assistant Secretary
nonconcurred based on the broad scope of the ITES-2S requirements, the nature
of the work performed, the pre-approval of the NAICS code, and small business
participation.

        Broad Scope. The Assistant Secretary stated that selecting a NAICS code
based on the procedures outlined in FAR 19.102 poses a challenge for IDIQ
contract vehicles like ITES-2S because of its extremely broad scope and the fact
that there are no definitized requirements until task orders are issued. He further
noted that the U.S. Army could only make its best estimate to what work will be
performed under ITES-2S.

        Nature of Work. The Assistant Secretary stated that the draft report
indicated that contracting officials selected the NAICS code based solely for the
purpose of obtaining a preferred size standard and did not consider the nature of
work. He contended that this was incorrect, and that the contracting officer
considered the nature of work in making her decision. The Assistant Secretary
referenced the March 8, 2005, memorandum prepared by the contracting officer
that stated that the objective of the acquisition was to provide for a full range of
services and solutions necessary for the Army to satisfy its support of the Army
enterprise infrastructure and infostructure goals with IT services worldwide. The
Assistant Secretary stated that the memorandum also compared the ITES-2S work
with NAICS codes 541519 and 517110 and concluded that no single code
covered the complexity of the ITES-2S acquisition and that NAICS code 517110
best described the makeup of this acquisition. He stated that although the
memorandum stated that NAICS code 517110 allowed for the most liberal small
business standard, the comment does not demonstrate that the contracting officer
failed to consider the nature of the work in selecting the NAICS code.

        The Assistant Secretary stated the report made certain assertions based
upon a selective consideration of acquisition documentation that revealed that the
Inspector General has misconstrued the nature of the requirement. He further
stated that, according to the report, the ITES-2S acquisition is predominantly for
services; that hardware and software are incidental; the vast majority of costs in
the Independent Government Cost Estimate are related to IT services; and that
systems will not be acquired through the ITES-2S contract vehicle. The Assistant
Secretary contended that although the services are unquestionably an essential
component, ITES-2S is not just for the procurement of services, and that
equipment is not an insignificant part of the acquisition. He further contended
that as an IDIQ vehicle involving requirements that will be definitized only at the
task order level, the ITES-2S contracts do not represent system procurements, but
the provision of total solutions under ITES-2S at the task order level is a
fundamental objective of the procurement.

        The Assistant Secretary stated that there are multiple references in the
acquisition plan that emphasize the need for end-to-end solutions that include
equipment as well as services. He added that awardees are responsible for
providing IT services and a full range of IT hardware and software; however, the
procurement of IT equipment must be related to the acquisition of the services,
and is therefore considered incidental. He stated that although the IT equipment
is incidental, that does not nullify the essential importance of the equipment to the


                                     19 

provision of end-to-end solutions. The Assistant Secretary stated that the non-
labor, solution-based costs in the Independent Government Cost Estimate, which
includes costs for equipment and other items, represented 39 percent of total
costs.

        SBA Notice. The Assistant Secretary stated that the draft report
mentioned that the contracting officer relied upon an SBA notice, “Standard
Industrial Classification (SIC) 4813 Clarification,” although it had expired.
According to the Assistant Secretary, even though the SBA notice had expired,
SIC code 4813 was the predecessor to NAICS code 517110, and the notice
provided insight into the view of the SBA on the scope of the code. He added
that the notice makes clear that the code is appropriate for services that comprise
disciplines in various SIC codes and that it encompasses providing equipment as
well as services.

        Other Considerations – Draft Comments. The Assistant Secretary
stated that the selected NAICS code is broader than the Inspector General
suggests and does not only apply to telephone companies such as AT&T.
According to the Assistant Secretary, the contracting officer selected the NAICS
code based upon various legitimate considerations, and her determination was
confirmed, prior to the issuance of the solicitation, by the DoD Small and
Disadvantaged Business Utilization officials of both the Army and DoD, and by
the SBA itself.

        The Assistant Secretary stated that although the type of work to be
performed under the contract is important in selecting a NAICS code, it is not the
only consideration. He quoted 13 C.F.R. Section 121.402(b) (2006), which states
that other factors considered include previous Government procurement
classifications of the same or similar products or services, and the classification
that would best serve the purposes of the Small Business Act. He further stated
that other DoD procurements, to include the Air Force’s Network-Centric
Solutions contracts and the ITES-2S predecessor vehicle, ITES-EMS3, used the
same NAICS code as was used for the ITES-2S contract. The Assistant Secretary
believes that the other factors identified in 13 C.F.R. 121.402(b) (2006) justified
the use of NAICS code 517110 and that by ignoring these other considerations
the DoD Inspector General’s analysis runs counter to the regulation. In his
January 17, 2007, memorandum, the Assistant Secretary stated that the NAICS
code chosen for the ITES-2S contract best met the purposes of the Small Business
Act.

       Protesting and Approval. The Assistant Secretary stated that prior to the
issuance of the ITES-2S solicitation, the NAICS code 517110 was approved by
the U.S. Army and DoD Small and Disadvantaged Business Utilization offices
and the SBA. In addition, the NAICS code was briefed to the Senate and House
Small Business Committee staffs; no one gave a negative response.

       The Assistant Secretary further stated that the NAICS code selection is no
longer a protestable issue, and the NAICS code selected was never challenged
under ITES-2S. The Assistant Secretary added that according to 13 C.F.R.
121.402(c) (2006), the NAICS code assigned to a procurement and its
corresponding size standard is final unless timely appealed to SBA’s Office of


                                     20 

Hearing and Appeals, or unless SBA assigns an NAICS code or size standard as a
result of a complaint to SBA. However, the Assistant Secretary stated that in the
case of ITES-2S, no challenge was ever filed against the choice of NAICS code,
nor did any companies otherwise voice dissatisfaction with the Army’s choice of
code.

        Small Business Preclusion – Draft Comments. The Assistant Secretary
stated that the selected code did not preclude smaller businesses from submitting
proposals, but merely established an upper limit for how large a company could
be in order to be considered small. He added that the ITES-2S strategy included
significant and impressive minimum mandatory small business subcontracting
goals, requiring offerors to guarantee overall small business participation of
25 percent of dollars awarded. He stated that the solicitation also required the
offerors to identify their small business teaming partners and the extent of
commitment to use the firms. He added that the 25 percent for small business
participation equates to a potential $5 billion geared towards small businesses
based upon the contract maximum of $20 billion. In response to the draft report,
the Assistant Secretary stated that the chosen NAICS code did not preclude any
smaller-sized companies from submitting proposals, but merely permitted larger-
sized companies to qualify as small businesses. He contended that the code
selected fosters small business participation by reserving prime contracts for
small businesses.

        Small Business Preclusion – Memorandum Comments. Additionally,
in his January 17, 2007, memorandum, the Assistant Secretary stated that the
selected code’s appropriateness was confirmed by ample research and based on
that research, the ITES-2S contracting officer concluded that a NAICS code with
a smaller size standard would have slanted the ITES-2S awards toward companies
that were unable to provide the depth/breadth of task orders required to meet
enterprise requirements and manage large numbers of task orders. In the
memorandum, the Assistant Secretary stated that although the SBA size standard
corresponding to NAICS code 517110 is larger than the standards associated with
many other NAICS codes, the contracting officer’s choice of NAICS code
517110 was appropriate and ultimately did not exclude smaller small businesses
from participating in the acquisition. Additionally, he stated that in the course of
choosing NAICS code 517110, the contracting officer concluded, in effect, that
smaller small businesses did not meet the purpose of the ITES-2S procurement.
Furthermore, the Assistant Secretary stated that the use of NAICS code 517110
permitted participation by small businesses meeting the larger size standard, and
that no proposals were received from any small businesses that would have
qualified under a more restrictive size standard. The Assistant Secretary
concluded that there was no basis to conclude that smaller businesses were placed
at any competitive disadvantage.

Audit Response. We disagree with the Assistant Secretary’s comment that the
NAICS code chosen by the contracting officer was the most appropriate code for
ITES-2S. Although the Assistant Secretary provided explanations for the use of
NAICS code 517110 based on the broad scope of the ITES-2S requirements, the
nature of the work performed, the pre-approval of the NAICS code, and small
business participation, his arguments ultimately did not explain how the IT



                                    21 

services or even the IT equipment to be acquired under ITES-2S related to
NAICS code 517110.

       Broad Scope. We are concerned about the Assistant Secretary’s comments
that there are no definitized requirements until task orders are issued and that the
U.S. Army could only make its best estimate to what work will be performed
under ITES-2S. FAR Part 10, “Market Research,” states that agencies must:

   •	 “ensure that legitimate needs are identified;

   •	 conduct market research before developing new requirements documents
      for an acquisition by that agency and before solicitating offers for
      acquisitions with estimated value over the simplified acquisition
      threshold; and

   •	 use the results of market research to determine if sources exist that are
      capable of satisfying the agency’s requirements.”

FAR Part 11, “Describing Agency Needs,” states that agencies shall specify needs
using market research in a manner designed to promote full and open competition.
Additionally, FAR Section 16.504, “Indefinite-Quantity Contracts,” states the
following:

       A solicitation and contract for an indefinite quantity contract must . . . include a
       statement of work, specifications, or other description, that reasonably describes the
       general scope, nature, complexity, and purpose of the supplies or services the
       Government will acquire under the contract in a manner that will enable a prospective
       offeror to decide whether to submit an offer.

FAR Section 16.504 also states the following:
       Contracting officers may use an indefinite-quantity contract when the Government
       cannot predetermine, above a specified minimum, the precise quantities of supplies or
       services that the Government will require during the contract period, and it is inadvisable
       for the Government to commit itself for more than a minimum quantity. The contracting
       officer should use an indefinite-quantity contract only when a recurring need is
       anticipated.

        Therefore, the use of an IDIQ contract requires the contracting officer to
identify a recurring need. If the contracting officer could not reasonably describe
the types of services or supplies she was intending to acquire under ITES-2S, then
this type of contract should not have been utilized. General requirements should
have been identified at the IDIQ contract level, with specifics on when and where
(indefinite-delivery) and how much (indefinite-quantity) should be identified at
the task order level.

        The Assistant Secretary’s comments led the audit team to believe that
proper market research was not conducted to determine whether an actual need
existed nor could the U.S. Army reasonably describe the general scope of the
services to be acquired. Without reasonably definitive requirements, potential
bidders could not fully understand what the Government was soliciting, and as a


                                          22 

result, full and open competition may not have existed. In addition, without
definitive requirements the U.S. Army should have taken proactive steps to avoid
noncompliance with the FAR, such as using a different type of contract vehicle or
severing the requirements into smaller acquisitions.

        Nature of Work. The contracting officials may have considered the
nature of work when selecting the NAICS code, but ultimately the decisions made
were incorrect when selecting the NAICS code. Additionally, it was evident that
the contracting officer did factor in the preferred size standard when selecting the
NAICS code. As mentioned previously in this report, the contracting officer
specifically stated that NAICS code 517110 was used because its small business
size standard was considered to be more liberal. Additionally, as noted in this
report and in the Assistant Secretary’s comments, the aforementioned March 8,
2005, memorandum states that NAICS code 517110 allowed the most liberal
small business size threshold, and therefore, would facilitate proposal
opportunities for businesses with greater technological compatibilities. In
accordance with the FAR, the NAICS code should have been selected based on
the principle purpose of the products and services to be acquired and not based on
a preferred size standard that would allow larger small businesses to compete for
task orders over smaller sized businesses.

        In response to the Assistant Secretary’s allegation that the Office of
Inspector General misconstrued the nature of the requirement based on a selective
consideration of acquisition documentation, we disagree. Our analysis was based
on a review of three major acquisition documents: the acquisition plan, contract
solicitation, and the contract. The ITES-2S acquisition plan specifically states
that ITES-2S is predominantly services with incidental hardware and software,
and although hardware and software will be acquired through Army Small
Computer Program contract vehicles, systems will not be acquired. In addition,
the ITES-2S acquisition plan and solicitation specifically describe the scope of
the work for ITES-2S as service-based. Further, the ITES-2S solicitation states
that the ITES-2S scope will include a full range of services and solutions
necessary for the Army to satisfy its support of the Army enterprise infrastructure
and infostructure goals with IT services worldwide. We note that the name of the
contract even includes the terms “IT” and “services.” Additionally, the U.S.
Army has awarded a separate IDIQ contract, the Information Technology
Enterprise Solutions-2 Hardware (ITES-2H) contract, for the primary purpose of
acquiring IT hardware. Therefore, even though incidental IT hardware will be
acquired through ITES-2S, the principle purpose of the acquisition is still for IT
services, whereas the principal purpose of the separate ITES-2H contract is for IT
hardware.

       According to the Assistant Secretary, 39 percent of the Independent
Government Cost Estimate is for non-labor, solution-based costs, to include
equipment and other items. This means the remaining 61 percent is for labor,
service-related costs. According to our analysis of the Independent Government
Cost Estimate, we concluded that 68 percent of the costs were directly related to
IT services. Nonetheless, we maintain our position that a NAICS code in section
54151 should have been used for the acquisition, based on FAR Part 19.102. As
mentioned in the report, FAR Part 19.102 states that when acquiring a service that
could be classified in two or more industries with different size standards,


                                    23 

contracting officials must apply the size standard for the industry accounting for
the greatest percentage of contract price. The labor and service-related costs of
the Independent Government Cost Estimate, whether 61 percent or 68 percent,
represent the greatest percentage of the price.

        The Assistant Secretary’s arguments do not explain how the IT services or
equipment acquired under ITES-2S relate to NAICS code 517110. The
information within the ITES-2S solicitation does not remotely describe work to
be performed by an industry that would be classified under NAICS code 517110,
“Wired Telecommunications Carriers.” The industry classified under NAICS
code 517110 performs the work associated with a telephone company. Therefore,
we maintain that a code within NAICS section 54151, “Computer Systems
Design and Related Services,” would best describe the services to be acquired
under ITES-2S. Any argument by the Assistant Secretary and the contracting
officer that ITES-2S is not for the acquisition of IT service solutions contradicts
what is written in the solicitation and acquisition plan, which is the basis for
contracting decisions.

        SBA Notice. In response to the Assistant Secretary’s statement regarding
the contracting officer’s use of the expired SBA notice, “Standard Industrial
Classification (SIC) 4813 Clarification,” to provide insight into the view of the
SBA on the scope of the code, we maintain our current position. Not only did the
SBA notice expire 15 years prior to the ITES-2S solicitation, SIC 4813 pertains
directly to telephone and data communications. As stated in the report, the SBA
notice states that SIC 4813 is appropriate when the telecommunications services
solicited require in-depth knowledge of the technologies developed by firms
typically classified in SIC 4813 and when a combination of telecommunications
services is included in a statement of work evidencing that the intent of the
procurement is to acquire a telecommunications system. In addition, as
previously stated in the report, the ITES-2S acquisition plan clearly states that
systems will not be acquired; therefore, the primary purpose of the ITES-2S
acquisition remains IT services. For that reason, we do not understand how the
insight provided by the SBA notice on the scope of the code could include
acquisition of IT services, when the SBA notice specifically states that it applies
to telecommunications services.

        We also note that the 1987 SIC codes were replaced by NAICS to enhance
comparability across three countries. The goal of NAICS is to reflect the current
economy in the United States, Canada, and Mexico. NAICS identifies service
industries not identified in the SIC. Compared to the SIC, NAICS includes an
additional 358 new industries, of which 250 are service-related industries.
Therefore, NAICS is more comprehensive than the SIC and focuses on a services-
based economy.

       Other Considerations. In response to the Assistant Secretary’s statement
that NAICS code 517110 is broader than the Inspector General suggests, we
disagree. As previously stated in the report, NAICS code, “Wired
Telecommunications Carriers,” is defined in the NAICS manual as an industry
engaged in operating and maintaining switching and transmission facilities to
provide point-to-point communications via landlines, microwave, or a
combination of landlines and satellite linkups or furnishing a telegraph and other


                                     24 

non-vocal communications using their own facilities. The report also identifies
index entries included with the NAICS definition. This description directly
corresponds to activities performed by a telephone company. The principal
purpose of the ITES-2S contract, acquisition of IT services, was not included in
the NAICS manual definition of code 517110.

         In reference to the Assistant Secretary’s interpretation of 13 C.F.R. Part
121 (2006), we disagree that other factors justify the use of NAICS code 517110.
The Assistant Secretary did not consider 13 C.F.R. Section 121.402(b) (2006) in
its entirety. This C.F.R. specifically states:

       Primary consideration is given to the industry descriptions in the NAICS United States
       Manual, the product or service description in the solicitation and any attachments to it,
       the relative value and importance of the components of the procurement making up the
       end item being procured, and the function of the goods or services being purchased.

        Previous Government procurement classifications of the same or similar
products or services are secondary factors. According to the FAR and C.F.R., the
primary factors for selecting a NAICS code are the principal purpose of the
products or services being acquired and the products or services accounting for
the greatest percentage of the contract price. As previously discussed, the
principle purpose of ITES-2S was for the acquisition of IT services, and therefore,
a NAICS code relevant to the IT industry should have been selected.

        Although other procurements were assigned NAICS code 517110, the
audit team can neither confirm nor deny that these procurements were assigned
the correct NAICS code or that the ITES-2S scope of work was similar to that of
these other procurements. Furthermore, a similar review of the Network-Centric
Solutions procurement was performed by the Office of Inspector General with
similar results to that of our review of ITES-2S. Specifically, it was determined
that the NAICS code chosen for the Network-Centric Solutions contract vehicle
did not appropriately represent the principle purpose of the products and services
to be acquired and did not represent the products and services accounting for the
greatest percentage of the contract price. Additionally, it was determined that a
code within NAICS section 54151 would have been more appropriate for the
Network-Centric Solutions acquisition.

        In response to the Assistant Secretary’s statement that the NAICS code
chosen for the ITES-2S contract best met the purposes of the Small Business Act,
we disagree. As previously mentioned in the report, the code chosen by the Army
officials, NAICS code 517110, “Wired Telecommunications Carriers,” was
chosen based on the most liberal determination of small business size standards,
rather than what best meets the definition of the services to be acquired under the
ITES-2S contract. As a result, businesses were inappropriately awarded prime
contracts reserved for small business awards.

       Protesting and Approval. In response to the Assistant Secretary’s
statements about the approvals of small business representatives, we do not
believe these approvals prove that a correct NAICS code was selected. We met
with the Procurement Center Representative for the SBA who signed the ITES-2S
Small Business Coordination Record, and he stated that his signature did not


                                          25 

indicate approval of NAICS code 517110. Additionally, he stated that unless a
complaint is made by a potential contractor, further consideration is typically not
made regarding the NAICS code selected. Recommendation 2. was prepared to
enable the Army Office of Small and Disadvantaged Business Utilization to
ensure similar errors will be discovered in future procurements.

        We also met with the ITEC4 Small Business Advisor, who stated that if a
NAICS code allowing for smaller small businesses had been chosen, those
businesses would have expressed an interest, but would not have been able to
successfully compete for the contract. Therefore, the ITEC4 Small Business
Advisor’s comments indicate that the primary concern when selecting the NAICS
code was choosing a code with the most liberal determination of small business
size standards. In addition, we did not receive documentation to verify that the
Senate and House Small Business Committee staffs approved the NAICS code.
Ultimately, however, in accordance with the FAR and C.F.R., the contracting
officer is responsible for selecting the NAICS code.

        In reference to the Assistant Secretary’s statements about protesting the
NAICS code, we understand that the deadline for protesting the NAICS code
selected by the contracting officer has expired. We also understand that the
NAICS code selected for ITES-2S was not formally protested. However, the lack
of protest does not validate that the code selected was the most appropriate code.
The DoD Office of Inspector General is not protesting the NAICS code selection,
but simply stating that the U.S. Army made an error in the selection of NAICS
code 517110.

        Small Business Preclusion. In response to the Assistant Secretary’s
response that the use of NAICS code 517110 did not exclude participation by
smaller small businesses, we disagree. As described within this report, NAICS
code 517110 has the largest size standard allowed by SBA. No income limitation
is placed on NAICS code 517110. Therefore, businesses receiving up to
approximately $700 million in yearly revenue, as is the case for Apptis Inc., can
qualify as a small business under NAICS code 517110. However, businesses that
qualify as small under a NAICS code within NAICS section 54151 must not
exceed $23 million in yearly revenue. Compared with businesses like Apptis Inc.,
small businesses under the $23 million threshold are at a severe competitive
disadvantage because these smaller small businesses cannot provide the volume
of work a larger small business can provide. By selecting NAICS code 517110,
these smaller small businesses were forced to compete with businesses that should
have been considered large businesses under an appropriate NAICS code.

          As noted previously, the Assistant Secretary stated that based on research
conducted, the ITES-2S contracting officer concluded that a NAICS code with a
smaller size standard would have slanted the ITES-2S awards toward companies
that were unable to provide the depth/breadth of task areas required to meet
enterprise requirements. The Assistant Secretary also stated that the contracting
officer concluded that smaller small businesses did not meet the purpose of the
ITES-2S procurement. Therefore, it was determined by the contracting officer
that small businesses under the $23 million threshold were too small to perform
the volume of work under ITES-2S. As result, these smaller small businesses had
little to no chance of ever receiving a prime contract under ITES-2S, and it would


                                     26 

have been futile for these businesses to go through the effort and expense of
creating a proposal and placing a bid for a contract that the contracting office had
already determined would not be awarded to businesses of their size.
Additionally, the research and determinations described above by the Assistant
Secretary are ultimately irrelevant in determining the appropriate NAICS code to
assign to ITES-2S. As previously discussed and stated in the FAR and C.F.R.,
primary consideration must be given to the principle purpose of the services to be
acquired and the services accounting for the greatest percentage of the contract
price. The contracting officer’s opinion that smaller sized businesses could not
perform the volume of work to be performed under ITES-2S should not have been
a factor in selecting the appropriate NAICS code.

        Furthermore, we dispute the Assistant Secretary’s claim that the selected
code’s appropriateness was confirmed by ample research. As discussed in this
report, the contracting officials stated that they did not review work performed
under the prior contract, ITES-EMS3, to determine what task areas were
accounting for the greatest percentage of the ITES-EMS3 contract price.
Additionally, the contracting office did not provide any evidence to support that
sufficient analysis was performed by the contracting office to determine what
NAICS code accounted for the greatest percentage of the ITES-2S contract price.

        We request the Assistant Secretary of the Army for Acquisition, Logistics,
and Technology reconsider his position and provide additional comments to the
final report.

       b. Follow Defense Federal Acquisition Regulation Supplement
procedures for consolidating contract requirements, or break up the
requirements into separate smaller contracts.

Management Comments. The Assistant Secretary of the Army for Acquisition,
Logistics, and Technology nonconcurs with the recommendation. He stated that
specific requirements have not been pre-defined under ITES-2S, requirements are
performed at the task order level, the acquisition plan was approved, IT services
were not consolidated, and small businesses were not deprived of participation.

        Pre-Defined Requirements. The Assistant Secretary stated that it is true
that the Army did not justify consolidation at the ITES-2S contract level, but
because ITES-2S is an IDIQ vehicle with no specific, pre-defined requirements, a
consolidation justification is not required by DFARS 207.170-2, “Definitions,” at
the contract level. The Army stated that DFARS 207.170-2 defines consolidation
of contract requirements as:
       The use of a solicitation to obtain offers for a single contact or a multiple award contract
       to satisfy two or more requirements of a department, agency, or activity for supplies or
       services that previously have been provided to, or performed for, that department,
       agency, or activity under two or more separate contracts.

        The Assistant Secretary stated that DFARS 207.170-3 prohibits agencies
from consolidating contract requirements with an estimated total value exceeding
$5.5 million without a determination by the senior procurement executive that the
benefits of a consolidation acquisition strategy exceed the benefits of possible


                                          27 

alternative contracting approaches. The regulation further states that benefits may
include costs, quality, acquisition cycle, terms and conditions, and any other
benefit.

        Task Order Level. The Assistant Secretary stated no requirements are
actually performed at the contract level and specific requirements were not pre-
defined in advance of the issuance of the solicitation. Furthermore, the Assistant
Secretary stated that even though DFARS 207.170-2 refers to IDIQ contracts, it
has no applicability to a procurement such as ITES-2S that lacks definitized
requirements. He also stated that due to the nature of ITES-2S, it was not
possible to know in advance, what, if any, requirements would eventually be
ordered that had previously been performed under two or more separate contracts.
In addition, he stated that it was not known whether consolidated requirements
with an estimated total value exceeding $5.5 million would be ordered under the
ITES-2S contracts.

        Army officials stated that upon award of the ITES-2S contracts, ordering
offices would be conducting task order competitions that do involve actual,
specified requirements; therefore, it could be possible that those individual task
orders will involve a consolidation of two or more requirements, at which time
there could be a consolidation as defined in 10 U.S.C. 2382(c) and DFARS
Subpart 207.170. The Assistant Secretary added that the ITES-2S ordering guide
and the Army Small Computer Program Web site will include notices that
ordering offices are responsible for complying with consolidation procedures
prior to the placement of an order under ITES-2S.

       Acquisition Plan Approval. Army officials contended that prior to the
issuance of the ITES-2S solicitation they submitted the acquisition plan for
review. During the review, the approach to performing any required justifications
for consolidation on an order-by-order basis was specifically addressed with the
Assistant Secretary of Defense for Network and Information Integration officials,
and authorization to proceed was provided.

       Consolidation of IT Services. The Assistant Secretary stated that the
Inspector General’s assertion that the hundreds of Army solicitation notices for IT
services identified on FedBizOpps are now consolidated under ITES-2S is
incorrect. He contended that Army users are not required to use ITES-2S;
therefore, it cannot be assumed that all Army IT services are now consolidated
into ITES-2S.

       Small Business. The Assistant Secretary stated that the award of task
orders under ITES-2S will not deprive small businesses with a smaller size
standard of appropriate opportunities. He stated that before task orders can be
placed under ITES-2S, ordering offices must comply with the DFARS procedures
for consolidation. Unless consolidation can be justified, requirements would
remain available for satisfaction through alternate contracting strategies to include
the award of prime contracts to small businesses.

Audit Response. We disagree with the Assistant Secretary’s comments. Even
though the Assistant Secretary argued that specific requirements have not been
pre-defined under ITES-2S, requirements are performed at the task order level,


                                     28 

the acquisition plan was approved, IT services were not consolidated, and small
businesses were not deprived; we maintain that ITES-2S consolidates
requirements according to DFARS 207.170.

        Pre-Defined Requirements. DFARS 207.170 is clearly applicable to the
ITES-2S acquisition. The Assistant Secretary did not provide any documentation
to support his statement that DFARS 207.170 has no applicability to the ITES-2S
procurement, which lacks definitized requirements. Multiple-award, task order
contracts, to include ITES-2S, specifically fall under the scope of DFARS
Section 207.170. DFARS 207.170 does not give the contracting officer or agency
the discretion to determine the applicability of this regulation based on their
opinion that ITES-2S has no pre-defined requirements. We agree with the
Assistant Secretary’s comments for Recommendation 1.a. that the ITES-2S
contract has an extremely broad scope. As discussed in this report, the inclusion
of an extremely broad scope of work supports our analysis that ITES-2S
consolidated contract requirements and ultimately results in ITES-2S being a
bundled contract.

        We also disagree with the Assistant Secretary’s assertions that no
requirements are definitized at the IDIQ level. Under an IDIQ contract, it is the
specific quantities and times for delivery that are not definitized until task orders
are issued. The general types of products and services to be ordered should be
defined; furthermore, as in compliance with FAR Section 16.504, the contracting
officer should only use an indefinite-quantity contract when a recurring need is
anticipated. We do not believe the Army would have allocated a potential of
$20 billion for the ITES-2S procurement unless a recurring need had been
identified.

         Task Order Level. In response to the Assistant Secretary’s comment that
no requirements are actually performed at the contract level, we disagree. In our
view and clearly stated in the ITES-2S Statement of Needs in the acquisition plan,
the purpose of the ITES-2S procurement is to fulfill the Army’s need for IT
services. Additionally, without reasonably defining requirements at the contract
level, the Army could not have legitimately calculated the Independent
Government Cost Estimate, which estimates hourly rates, hours of performance,
and total costs for a multitude of labor categories relating to IT.

        Acquisition Plan Approval. The Army contended that the ITES-2S
acquisition plan, which states that the ITES-2S procurement does not involve
consolidating requirements, was approved by the Assistant Secretary of Defense
for Networks and Information Integration. However, the September 2, 2005,
Assistant Secretary of Defense for Networks and Information Integration
Memorandum, authorizing ITES-2S to proceed with the procurement, stated that
the Army was authorized to proceed under the condition that the contract guards
against undue consolidation. Therefore, the Assistant Secretary cannot contend
that the ITES-2S contract does not consolidate requirements based on an
approved acquisition plan by the Office of the Assistant Secretary of Defense for
Network and Information Integration.

         Consolidation of IT Services. Although Army users are not required to
utilize ITES-2S, many Army users that have contracted for IT services under


                                     29 

smaller contracts will use ITES-2S to fulfill their needs for IT services.
Therefore, the Assistant Secretary cannot contend that ITES-2S does not
consolidate contract requirements only because the contract vehicle is not
mandatory for Army users. There is nothing included in the DFARS that states
that mandatory use is a requirement for consolidation. Additionally, the Assistant
Secretary acknowledged that the report stated that all requirements for IT services
were consolidated into one requirement under ITES-2S; however, he stated that it
cannot be assumed that all Army IT services are now consolidated. We did not
intend to indicate that all Army IT services were consolidated, but were referring
to the “full spectrum of enterprise requirements” required to be fulfilled by the
ITES-2S contract, as stated in the “DD2579, Small Business Coordination
Record, ITES-2S,” March 19, 2005.

        Small Business. We do not agree with the Assistant Secretary’s statement
that the award of task orders under ITES-2S will not deprive small businesses
with a smaller size standard of appropriate opportunities. The most appropriate
small business size standard for ITES-2S was for a small business with $23
million in annual receipts. The ITES-2S contracting officials stated in a
memorandum that small businesses with annual receipts of $21 million or below
could not provide the depth of task areas required to cover a full spectrum of
enterprise requirements. Therefore, it was determined that the ITES-2S
requirements were too broad for small businesses to perform, even though they
could provide a portion of the requirements. When the requirements under ITES-
2S were consolidated, the scope of work became too broad for appropriately
qualified small businesses to successfully compete.

        Consolidation Justification. ITES-2S clearly consolidates contract
requirements, and as in accordance with DFARS, justification is required. The
Assistant Secretary stated the ITES-2S is an IDIQ vehicle with no specific, pre-
defined requirements; therefore, a consolidation justification is not required by
DFARS 207.170-2 at the contract level. However, this contradicts the Assistant
Secretary’s decision to justify consolidation for the World-Wide Satellite Systems
Program, another similar IDIQ vehicle. In the Assistant Secretary’s
memorandum, “Determination for the Consolidation of Contract Requirements
for the World-Wide Satellite Systems Program,” October 4, 2005, consolidation
of contract requirements for the World-Wide Satellite Systems Program was
necessary and justified pursuant to DFARS 207.170. Therefore, for the
World-Wide Satellite Systems Program, the Assistant Secretary considered
DFARS 207.170 applicable, even though the contract is also an IDIQ vehicle. .

        We request the Assistant Secretary of the Army for Acquisition, Logistics,
and Technology reconsider his position and provide additional comments to the
final report.

       c. Justify the contract bundling.

Management Comments. The Assistant Secretary of the Army for Acquisition,
Logistics, and Technology, responding for the Director, Army Contracting
Agency, nonconcurred with the recommendation. The Assistant Secretary
disagreed because the ITES-2S contract is not consolidated, bundling
determination applies at the task order level, GAO Competition and Contracting


                                    30 

Act rulings justify consolidation, and small businesses did not receive a
competitive disadvantage.

        Consolidation. The Assistant Secretary contended that ITES-2S is not a
bundled contract because ITES-2S does not consolidate contract requirements.
The Assistant Secretary stated that “bundling” is defined as consolidating two or
more requirements for supplies or services, previously provided or performed
under separate smaller contracts, into a solicitation for a single contract that is
likely to be unsuitable for award to a small business concern due to factors that
are described in the regulation. The Assistant Secretary stated that FAR Part
2.101 and FAR 7.107 provide regulations for the acquisition of bundled
requirements. According to the Assistant Secretary, FAR Part 7.107(b) states that
the

       Benefits may be deemed sufficient to justify bundling if the benefits to be derived from
       the bundling, after comparison with the benefits if requirements are not bundled, are
       equivalent to, (1) ten percent of the estimated contract or order value (including options)
       if the value is $86 million or less, or (2) five percent of the estimated contract or order
       value (including options) or $8.6 million, whichever is greater, if the value exceeds $86
       million.

        In addition, the Assistant Secretary stated that FAR Part 7.107(g) provides
that in assessing whether cost savings would be achieved through bundling, the
contracting officer must consider the cost that has been charged or, where data is
available, could be charged by small business concerns for the same or similar
work.

        The Assistant Secretary added that FAR Part 2.101 defines “bundling” in
terms of a solicitation that is likely to be unsuitable for award to a small business
concern. According to the Assistant Secretary, the ITES-2S procurement does
not meet this regulatory standard, because the procurement was determined to be
suitable for performance by small business, and a number of small business
concerns submitted proposals. Ultimately, awards were made to five offerors
deemed to be small businesses by the SBA.

        The Assistant Secretary reiterated his position that the ITES-2S contract
did not constitute consolidation under the bundling requirements because specific
requirements were not pre-defined at the contract level. He added that absent
these requirements it is not possible to determine whether requirements have been
performed under separate smaller contracts, nor is it feasible to quantify and
compare the benefits from performing a bundled effort with the benefits from
performing the same or similar work when not bundled.

       Task Order Level. The Assistant Secretary stated that under the ITES-2S
contract procurement work will be specified at the task order level, and that this is
the appropriate time for the application of the bundling regulation in a
procurement such as ITES-2S. He added that procedures are being finalized to
ensure compliance at the task order level with the regulations governing small
business bundling.




                                          31 

        GAO. The Assistant Secretary stated that even if the previous arguments
that the requirements are not bundled are rejected, there is justification for the
consolidation consistent with GAO Competition on Contracting Act rulings,
based on mission requirements. He stated that solutions under ITES-2S must be
“uniform” in order to mitigate risks in conjunction with disruption and delay of
wartime operations. He concluded that having a single contract with limited
vendors is the way to ensure uniformity.

        Small Business – Memorandum Comments. In his January 17, 2007,
memorandum, the Assistant Secretary stated that any small business could have
submitted a proposal, but the Army did not receive proposals from any small
business that would have qualified as small under a more restrictive size standard.
The Assistant Secretary concluded that these smaller businesses were not placed
at “any competitive disadvantage.” Therefore, since any small business could
have competed for the ITES-2S procurement, there is no basis to conclude that
there was improper bundling, or that a justification for bundling was required.

Audit Response. We disagree with the Assistant Secretary’s comments.
Although the Assistant Secretary denied that the contract was bundled because
the ITES-2S contract is not consolidated, bundling determination applies at the
task order level, GAO Competition and Contracting Act rulings justify
consolidation, and small businesses did not receive a competitive disadvantage;
we have previously illustrated in this report how ITES-2S meets the entire
criterion for a bundled contract.

        However, we revised Recommendation 1.c. because it is no longer
reasonable for the U.S. Army to re-compete the ITES-2S base contract. We
request that the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provide comments to the revised recommendation in response to the
final report.

        Consolidation. As discussed previously, we take exception with the
Assistant Secretary’s assessment that ITES-2S does not consolidate contract
requirements and have illustrated how, through contract consolidation and
selecting an incorrect NAICS code, the ITEC4 contract officials bundled the
ITES-2S contract, resulting in a contract that was unsuitable for appropriate small
business prime contract awards.

        We agree that, according to FAR Part 7.107, benefits may be deemed
sufficient to justify bundling; however, the ITES-2S contracting officials did not
provide a benefits analysis or other justification for bundling the ITES-2S
contract. This report has provided the requirements and basis of a bundled
contract per FAR Subpart 2.1. The Army assigned an incorrect NAICS code to
the ITES-2S contract and the contracting officials improperly awarded small
business reserves to businesses not categorized as small per the appropriate
NAICS code.

       We disagree that the ITES-2S contract did not constitute consolidation
because specific requirements were not pre-defined at the contract level. As
previously stated, DFARS 207.170, “Consolidation of Contract Requirements,” is
applicable to the ITES-2S acquisition. Multiple-award task order contracts, to


                                    32 

include ITES-2S, specifically fall under the scope of DFARS 207.170. DFARS
207.170 does not give the contracting officer or agency the discretion to
determine the applicability of this regulation based on their opinion that ITES-2S
has no pre-defined requirements.

        Task Order Level. FAR Part 2.101 states that multiple-award, IDIQ
contracts fall under the definition of a “single contract.” Therefore, bundling
regulation is applicable to ITES-2S at the IDIQ contract level. We disagree with
the Assistant Secretary’s statement that the task order level is the most
appropriate time for applying bundling regulations.

        GAO. We asked the Office of the Assistant Secretary of the Army for
clarification on which specific GAO Competition in Contracting Act rulings he
was referring to that justified consolidation, but did not receive a response.
Through reviewing prior audit coverage, we discovered GAO case, “Phoenix
Scientific Corporation, B-286817,” February 22, 2001, which is similar to the
ITES-2S procurement. In the Phoenix Scientific Corporation case, GAO denied a
protest alleging that the Air Force had improperly bundled a solicitation for a
multiple-award task order contract. GAO concluded that the procurement was not
a consolidation that would result in a contract unsuitable for award to a small
business concern. However, unlike the ITES-2S contract, the Air Force selected
the appropriate small business size standard. The ITES-2S contracting officials
did not follow FAR requirements in selecting an appropriate small business size
standard. Therefore, this GAO Competition in Contracting Act ruling cannot be
used as precedence for consolidation justification for the ITES-2S contract. Also,
as stated previously in the report, if the correct code had been chosen for the
ITES-2S acquisition, true small businesses would have been eligible for the
contract and therefore, the contract would not have been bundled.

        Small Business – Memorandum Comments. We disagree with the
Assistant Secretary’s comment in the January 17, 2007, memorandum that any
small business could have competed for the ITES-2S contract; therefore smaller
businesses were not placed on any competitive disadvantage. Even though small
businesses were provided the opportunity to place a bid on the ITES-2S contract,
this does not equate to ITES-2S being suitable for small business award.
Although these smaller businesses could have submitted a bid, as previously
mentioned, the contracting office had already determined that these smaller
businesses could not perform the volume of work under ITES-2S, and they
ultimately had no chance of winning a prime contract. Therefore, it was incorrect
to say that these smaller businesses were not placed at “any competitive
disadvantage.” In reality these smaller businesses had little chance to compete for
award. The FAR defines “bundling” as the consolidation of two or more
requirements for supplies or services, previously provided or performed under
separate smaller contracts, into a solicitation for a single contract that is likely to
be unsuitable for award to a small business concern. Small businesses under the
size standard of $23 million in average yearly revenue were precluded from
competing for ITES-2S prime contract awards. However, these small businesses
represented the appropriate-sized small businesses as per an appropriate NAICS
code. Therefore, since ITES-2S was unsuitable for award to appropriate-sized
small businesses, ITES-2S is a bundled contract.



                                      33 

        Furthermore, even though it was determined by contracting officials that
smaller small businesses could not meet enterprise requirements, these smaller
small businesses could have performed portions of the requirements. However,
the contracting office decided not to set aside any portion of the work under
ITES-2S just for small business competition. The contracting office determined
not to utilize a partial small business set-aside as described in FAR Subpart 19.5,
“Set-Asides for Small Business.”

       We request the Assistant Secretary of the Army for Acquisition, Logistics,
and Technology reconsider his position and provide additional comments to the
revised recommendation in the final report.

2. We recommend that the Director, Army Small and Disadvantaged
Business Utilization develop a standardized contract review process for small
business that verifies compliance with the Federal Acquisition Regulation
requirements.

Management Comments. The Assistant Secretary of the Army for Acquisition,
Logistics, and Technology, responding for the Director, Army Small and
Disadvantaged Business Utilization, concurred.

Audit Response. The comments were responsive to the recommendation.




                                     34 

Appendix A. Scope and Methodology 

   We conducted this performance audit from March 2006 through June 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   The scope of this audit was limited to a review of the ITES-2S acquisition.
   Specifically, we determined whether the ITES-2S contract was consistent with
   Federal and DoD acquisition policy, to include information assurance
   requirements.

   We interviewed and obtained documentation from the staffs of the Program
   Executive Office-Enterprise Information Systems; ITEC4; Army Contracting
   Agency; Army Small Computer Program Office; Office of the Secretary of
   Defense, Networks and Information Integration; SBA; and Office of the Under
   Secretary of Defense for Acquisition, Technology, and Logistics (Defense
   Procurement and Acquisition Policy).

   We obtained information for the audit through meetings and e-mails with the
   personnel above. We reviewed and analyzed laws, policies, guidance, and
   documentation dated from February 1996 through October 2006. Specifically, we
   reviewed and compared:

      •	 FAR Part 10, “Market Research,” February 12, 2007; FAR Part 11,
         “Describing Agency Needs,” September 28, 2006; FAR Subpart 19.1,
         Section 19.102, “Size Standards,” September 28, 2006; FAR Subpart 19.2,
         Section 19.201, “General Policy,” September 28, 2006; C.F.R. Title 13,
         Chapter 121, “Small Business Size Regulations,” Sections 121.101 a,
         121.402 b, 121.407, and 121.410, January 1, 2006; ITES-2S Acquisition
         Plan, May 24, 2005; and ITES-2S Solicitation, October 7, 2005, for the
         small business concern.

      •	 Title 10, United States Code, chapter 141, section 2382, “Consolidation of
         contract requirements: policy and restrictions,” January 3, 2005; DFARS
         Section 207.170, “Consolidation of contract requirements,” March 21,
         2006; Deputy Secretary of Defense Memorandum, “Consolidation of
         Contract Requirements,” October 28, 1996, for consolidation of
         requirements.

      •	 FAR Subpart 2.1, “Definitions of Words and Terms,” September 28, 2006;
         Department of Defense, Office of Small and Disadvantaged Business
         Utilization, Benefit Analysis Guidebook; ITES-2S Acquisition Plan,
         May 24, 2005; and ITES-2S Solicitation, October 7, 2005, for bundling
         determination.




                                      35 

       •	 DoD Directive 8500.1, “Information Assurance,” October 24, 2002; DoD
          Instruction 8500.2, “Information Assurance Implementation,” February 6,
          2003; DoD Instruction 8580.1, “Information Assurance in the Defense
          Acquisition System,” July 9, 2004; and ITES-2S Solicitation, October 7,
          2005, for Information Assurance compliance.

       •	 Title 44, United States Code, chapter 35, section 3502, “Definitions,”
          January 26, 1998; Defense Acquisition Guidebook Guidance for the
          Clinger-Cohen Act of 1996, July 12, 2006; DoD Instruction 5000.2,
          “Operation of the Defense Acquisition System,” May 12, 2003;
          Clinger-Cohen Act of 1996, Division E of Public Law 104-106,
          February 10, 1996; Acquisition, Technology, and Logistics Memorandum,
          “Acquisition of Services,” May 31, 2002; Acquisition, Technology, and
          Logistics Memorandum, “Acquisition of Services Policy,” October 2,
          2006; ITES-2S Acquisition Plan, May 24, 2005; and ITES-2S Solicitation,
          October 7, 2005, for compliance with the Clinger-Cohen requirements.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. The Technical Assessment Directorate of the DoD
    Inspector General reviewed Section C, Statement of Objectives of the ITES-2S
    contract and concluded that all Federal Government and DoD Information
    Assurance policies were met. Specifically, the Technical Assessment Directorate
    compared Section C, Statement of Objectives of the ITES-2S contract to the
    information assurance requirements identified in Federal and DoD policy. They
    found that the ITES-2S contract did incorporate the requirements identified in
    directives, instructions, and guides to ensure information assurance of system and
    networks.

    Government Accountability Office High-Risk Area. GAO has identified
    several high-risk areas in DoD. This report provides coverage of the Protecting
    the Federal Government’s Information Systems and the Nation’s Critical
    Infrastructures and the Management of Interagency Contracting high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the ITES-2S contract during the last
    5 years.




                                        36 

Appendix B. Other Matters of Interest

ITES-2H NAICS Code Selection
    Although the ITES-2H contract was not within the scope of this audit, while
    performing our audit of the ITES-2S contract, we identified the following
    concerns about the ITES-2H contract: ITEC4 contracting officials did not follow
    FAR procedures in assigning a NAICS code to the ITES-2H solicitation, and as a
    result, appropriately qualified small businesses may not have had fair opportunity
    to compete for ITES-2H small business reserve awards.

    ITES-2H Background. On August 22, 2006, Army’s ITEC4 contracting
    officials released the solicitation for its ITES-2H contracts. ITES-2H is a
    $5 billion multiple-award, IDIQ contract that stipulates awarding contracts to
    seven contractors with two awards being reserved for small businesses.

    The ITES-2H solicitation states that the fundamental purpose of the ITES-2H
    acquisition is to support the Army enterprise infrastructure and infostructure goals
    with a full range of innovative, world-class IT equipment and solutions at a
    reasonable price. Contractors are to provide for
           the purchase and lease of commercial RISC/EPIC servers, Intel/AMD
           servers, desktops, notebooks, workstations, thin clients, storage
           systems, networking equipment (including wireless), network printers,
           product ancillaries (including equipment cabinets, racks and mounts),
           peripherals (including monitors), network cabling products, video
           teleconferencing (VTC) products, standalone displays (e.g., plasma
           screens, HDTVs), scanners, Everything over Internet Protocol (EoIP)
           products, communications devices, power devices, software, basic
           warranty and warranty options, and other related accessories and
           options.

    The contractors also must provide related fixed-price services that enable the
    capability to provide end-to-end equipment solutions. However, services must be
    directly related to the procurement of equipment under ITES-2H.

    NAICS Code Selection. The ITES-2H solicitation was assigned the NAICS
    code 517110, “Wired Telecommunications Carriers.” This is the same code
    assigned to the ITES-2S solicitation even though ITES-2S is predominantly for
    the acquisition of services and ITES-2H is predominantly for the acquisition of
    hardware.

    FAR Subpart 19.102 states that small business size standards are applied by
    classifying the product or service being acquired in the industry, whose definition,
    as found in the NAICS manual, best describes the principal nature of the product
    or service being acquired. Therefore, contracting officials should have assigned
    the ITES-2H solicitation a NAICS code whose definition best describes the
    industry that manufactures, sells, and leases IT hardware and equipment.


                                            37 

The NAICS manual defines “Wired Telecommunications Carriers” as the industry
engaged in operating and maintaining switching and transmission facilities to
provide point-to-point communications via landlines, microwave, or a
combination of landlines and satellite linkups, or furnishing telegraph and other
non-vocal communications using their own facilities. The definition for “Wired
Telecommunications Carriers” does not remotely describe an industry that
manufactures, sells, and leases IT hardware and equipment. The following codes
within the NAICS manual better describe the principle nature of what is to be
acquired under ITES-2H:

       •	 423430, “Computer and Computer Peripheral Equipment and Software
          Merchant Wholesalers;”

       •	 334111, “Electronic Computer Manufacturing;”

       •	 334112, “Computer Storage Device Manufacturing;”

       •	 334113, “Computer Terminal Manufacturing;” and

       •	 334119, “Other Computer Peripheral Equipment Manufacturing.”

The NAICS manual defines “Computer and Computer Peripheral Equipment and
Software Merchant Wholesalers” as the industry that comprises establishments
primarily engaged in the merchant wholesale distribution of computers, computer
peripheral equipment, loaded computer boards, and computer software. The
NAICS manual describes NAICS section 33411, “Computer and Peripheral
Equipment Manufacturing,” which includes the NAICS codes 334111, 334112,
334113, and 334119, as the industry that comprises establishments primarily
engaged in manufacturing and assembling electronic computers, such as
mainframes, personal computers, workstations, laptops, and computer servers;
and computer peripheral equipment, such as storage devices, printers, monitors,
input/output devices, and terminals. These codes specifically relate to the
acquisition of IT hardware and equipment, and therefore, best describe the
principle nature of what is to be acquired under ITES-2H. However, ITES-2H
contracting officials did not follow FAR requirements when they selected a
NAICS code that does not best describe the principle nature of the products being
acquired.

Size Standards and Small Business Participation. NAICS code 517110,
“Wired Telecommunications Carriers,” has an associated small business size
standard of 1,500 employees. Codes that best describe the products to be
acquired under ITES-2H have small business size standards of 1,000 employees
and less. Since contracting officials assigned NAICS code 517110 to the ITES-
2H solicitation, businesses can qualify as small if they have 1,500 employees or
less. However, if an appropriate code was assigned to ITES-2H, businesses
would be considered large if they had more than 1,000 employees. As a result,
appropriately qualified small businesses with 1,000 employees or less may have
to compete with businesses that have over 1,000 employees for ITES-2H small
business reserve awards, and would not be considered small if the appropriate
NAICS code was chosen.



                                    38 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Networks and Information Integration/DoD Chief
   Information Officer
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Director, Army Contracting Agency
   Director, Information Technology, E-Commerce, and Commercial Contracting Center
Program Executive Officer, Enterprise Information Systems
   Project Manager, Army Small Computer Program
Director, Small and Disadvantaged Business Utilization Office

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
U.S. Small Business Administration




                                          39 

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Small Business and Entrepreneurship
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
House Committee on Small Business




                                      40 

Department of the Army Comments 



                                    DEPARTMENT OF THE ARMY 

                              OFFICE OFTHEASSISTANTSECRETARYOFTHEARMY

                                   ACQUISITIONLOGISTICSANDTECHNOLOGY

                                             103 ARMY PENTAGON
                                         WASHINGTONDC30310-0103

 02                                              MAY 2007
      SAAL-PP


      MEMORANDUM FOR OFFICE OF THE INSPECTOR GENERAL. DEPARTMENT OF
                        DEFENSE, ATTN. MS- JACQUELINE L. WlCECARVER.
                        PROGRAM DIRECTOR. ACQUISITION AND CONTRACT
                        MANAGEMENT. 400 ARMY NAVY DRIVE, ARLINGTON.
                        VA 22202


      SUBJECT: Information Technology Enterprise Solutions (ITES-2) Services Contracts

               References:

               a. DODIG letter dated December 8. 2006, to ASA(ALT), subject: same as above.
               b. ASA(ALT) response to DODIG, letter dated January 17, 2007. subject: same as
      above,
               c. DODIG Draft Report No D2006-D00CAS-0173.000, February 28. 2007
             I am writing in response to your recent report dated February 28, 2007, wherein you
      request that the U.S. Army revise North American Industry Classification System code
      (NAICS) assigned to the ITES-2 contract to an appropriate code as defined in the NAICS
      manual and modify or re-compete the ITES-2 contract requirements in order to allow
      appropriate small business participation. In addition, you recommended that the Director,
      Army Small and Disadvantaged Business Utilization, develop a standardized contract
      review process to ensure small businesses participation to the fullest extent.

            The U.S. Army is convinced that all actions taken by the Information Technology
      E-Commerce and Commercial Contracting Center and the Army Office of Small Business
      Programs (OSBP) to ensure that the ITES-2 Services Contracts support the purposes of the
      Small Business Act by promoting small business participation are correct. In addition, the
      Army OSBP Intends to implement recommendation #2

            Provided at the enclosure to this memorandum are detailed responses to the issues
      addressed in your report referenced at paragraph c above-




                                                  Claude M. Bolton, Jr./
                                           Assistant Secretary of the Army
                                        {Acquisition, Logistics and Technology)
      Enclosure




                                                   41 

Recommentdation 1.a. REVISED the North American lndustry Classification System code
assigned to the lnformation Technology Enterprise Solutions-25 Services contract to an
appropriate code defined in the North American Industry Classification System manual
under section54151.-'ComputerSystemsDesignAndRelatedServices,"

Army nonconcurs with the recommendation.

 The Armyy nonconcurs with the recommendation for various reasons, as discussed below.

a The Report correctly notes, at page 6, that size standards are applied by classifying the
product or service being acquired in the code for the industry that "best describes the
principal nature of the product or service" and that contracting officers are to apply the
size standard fee the industry accounting for the "greatest percentage of the contract
price"when the product or service could be classified in two or more industries..." FAR
19.102(b)(1) and (d). That poses a challenge for large Indefinite Delivery indefinite
Quantity vehicles such as ITES-28, which are extremely bread in scope and have no
defined requirements until individual task orders are placed. The Army can only make ill
best estimate of the work that will be performed. In this procurement, the Army's
contracting officer chose a code based upon a number of legitimate considerations.
selecting NAICS code 517110 "Wired Telecommunications Carriers."

At page 10, the Report indicates that Contracting Officials selected the code solely for the
purpose of obtaining a preferred size standard "that would allow the most liberal small
business threshold" and without considering the nature of the work. That is not correct.
In her NAICS code determination memorandum, the contracting officer expressed
familiarity with the same applicable regulation governing NAICS codes noted by the
DOD IG in the Report and she clearly considered the nature of the work in making Her
decision on the appropriate code.

In amemorandumbythe erjotraakog tnfil «r, due J a ^ta^th 2M)5. subject: "Nc#A
Americjfi lndualTjf Cbiiaifi^lLun Sptcni (NATC5) Code DeiCrtimiaJriurL ILr ]r(r>nnjlifln
TtchMlosy ^;s^7p^.n^ inLuiicmg-J Scruiwa (ITiiSnisr, th? corwrwrir^ officw
CLlLr.jriccd lhc opplicahk p*tiviauiiicrf TAR I-5 IDS. The nwrniJiaiWurl inc[uLkf:
refenerrws io tJie I"[1LS IS wwi MK) ihc cimssdciaiion itftky wxirfc. in cliooans the-
NAJCSi codr. Pjj^||.rnfhi 3 p r f ' i d t t .

         The objnlivE Dt'tliif iKqujf.iLkl'Jl \n<) piOvidt: a lull ranjc iff services artd
         tufcliuru pe«S5nr> f o f l h * Artn}1 Id i i l u f y i|s ojppwi of die A n n j enurrpnw
         infrMtnJCtUK abll icuT«atructiUT jOiUi-winh Ulfoiniaiiari iLLtuinlciuj ( I T j WTV1PFS.
         **rld^iie. The sogpe irehtriM t'oinnunci. Central, CouTiiuiiieaiiofia.
        Lcmpu1eii h m j [rdoonitkci Manacj:inciK (C<HM) reajutrcirieiil ax defineel in
        Army P.^ijlaiiun(AR 25-IJ. T\ii ipcludet HVtKiimri.c end-tin.end wlerthons
        lUppiSri lc. ialiaf)'T*ior|dw*lcde,r*JuiJrrH:nI, depigymetH, opCHHion, rufedrmflCn
        and ai^winunedt rcquifeimLi liir the Aimy.




                                                7




                                                42 

                                                                                                           Final Report
                                                                                                            Reference




   wZT™^m™T™nSflffi"r«-nP«<"l                      ** ITES-2S v*,rktoNAICS codes 

   Jfi = i v and J ] 7110. The memorandum notes thai no single code covers the 

    comple*,*" of the 1TES-2S acquisttion. It states that "NAICS code 5415*9 covers onlv 


  517Ll(>^d concludes that that code "best describes the makeup of mis acquisition" 

  because the cede parallels the basic function of the acquisition. Specific^ ^ 

  memorandum slates:                                                         ''                                           


          NAICS code 517170 focuses or. firms engaged in furnishing point-to-point

         ibis requirement as described above. Therefore, the NAlCS code that best 

         describes the makeup of the acquisition is 517110, 


  While it is true that there i, a reference in the memorandum to thefitelthat the chosen 

  code allows the most hberal small business size s^dard, mat c o g e n t is nritht 

                                                a f a i l w e by t h e
   a S t ^ *         ^     " t ^ T ? *                              """"^ ^            ^ -Ser    the
                     m m a k m e h£C d e W f m i n a t i 0
  S     J ^                                                  " '» « « , * c documentation ckarly
 S S S t o S S S " ^ ™ ^ * «™ "f- ™* * ^Sin^ltc
 At page 7 of (he Report, it is mainlained that the code selected by the contract™ officer

 aS^EnT ^         T * T 8 W * a n d * '• ^        " P * " a * l ^ v e ^ d e r a t i o n of                 p7
 *quis.lwn documentation that reveal the IG has misconstrued the nature of ihT
                   P l                         1n ,eS                      mc           is
 S   l t r                ? if*" ° '^ *° " -™'                    ^           — y for
 * ™ « s , thai hardwire and software are "incidental", that ,he "vast nwiority*- of costs in
  he independent Government Cost Estimate (MCE) are "related to IT s e ™ ^                             S
 systems vnll no. be acquired through the 1TES-2S contract vehicle."

While services are unquestionably an essential comport, ITES-2S is not simulv 

procurement for IT services. Nor is the acquisition of equipment a n taEfi*™ w 

of lk.sprocur.nem. The purpose of 1TES-2S is to obtain a prwuremenfveh.r P 

c o m i n g of mulnple e x a c t s fen can support the Army inlrastrucZ a n i r u c t u r e 


S S T      ^      ^d-Tc^nd solution wrfchtide, As an IDIQ contract vehicle
Z t ? 8 I T T " 1 " ^ W i " * d e f i n i , i M d ^ * t h e ««* order level ,hHTES-2S

^unTlnt                                    °      '1CVd      iSa    fimterae
                                                                               «»l "bj^'ive of the

There are multiple references in the Acquisition P1 M that emphasize the needforend-to­
end soluttons that mdude equipment as well as semces. Awardees ™ r S S £ ™ i



under ITES-2S m m be related to the acquisition of the services." [„ dial sense, the




                                                         43 

Final Report
 Reference




                                     U
                  Z r * S K              S       "J"*™00"? b*the               a
                                                                                   « * " ^non-labor. solmion-based
                                               t e d abCVe       he
                 • h* £            , "°            ' * (**«««««« Of equipmentforsolutions will
                 always be connectedtothe p r o c u r e * 0 f related seme?,, n ^ , the total « J tf


p 11             ^   3 ^ ^ 5 ? T DO,eS ""* t h e c o n l r a c t i n e o f f f « * relied upon n SB A notice
                 ;   i , S ^ . ^ ^ C I ^ i ^ t i o n (SIC)4B13 CbrifiJ™, although i, 5

                                                               PIDVldeS               intQ        VJeW
                 AdmiiSL              *"              J?"                  ™#*               **          °f,he   S n
                                                                                                                       ^ Business
                 cc£" ™ 2 ?               ^     ^ S T Wde- ^ ^ ^ y  , * • "<*« make, dear that t h f
                 e ™ T P ,               -SCrV WS t h a C C , m p r i s e d i s c j
                                               *                  P ^ in various SIC codes and that it
                 encompasses providing equipment as welf as services.

                 £ E ™ ^ ^ "? D ° D I G d ™ e S ,he " " ^ « * » "WW-* ™ly to
                            C M , p a n
                sSS                     ~ h tS A m T " i n f ««. h —ver s as the C o n S S Office?
                £ £ of m s T r l " ™ ,1 W*S m• "g l?e N*A r C "S c o d,ch Mw lhttc
                                                                                ich
                                                                                    I0
                                                                                       • * • * • D « * the broad
                ,?£J J         ? '^ £                                                w«W " e « n p w all of the work
                to be performed under ITES-2S. THe contracting o^cer selected th= c E t a i S u W
                various legitimate considerations, andtardetermination was confirmed « S S 2

                UK SBA itself. Moreover, the Senate and House Small Business Committee staffs were
                bnefcd orj the selected NAI.CS code without a negative response. ^ ° m m l t t e e ^ ^ W e r e

                tn^fng l°        aPPliMblt      re ulation
                                                  S       '   &e
                                                                   «JP" Of work to be performed under the

                Tviotc^ve™'                 tgulajions s u e that "fo]ther factors considered i^ckde
                                        en,e n
                services, and tecLwifictgn w h?[ c h^ Wf |il l«d l^os »e r av ™
                M   ^     2 ? h T   r T     u                                 e
                                                                                * sameftor simile^product,
                                                                                                     •>«or
               B-'--Act."         3 CFR S I21.4u2(b). I„ the exse of I T E S - ' T L Ann J demfi ed
               code 517110. These mclude the Air Foree', Network-Citric Soluiions fNETCENTSi
               S S S S S S ^ 1mroniCS                           U f e CyClC
                                                                                   ^^menTcor^™^

               SSKf,SSS n                                     (TErs> d n Mntrac,sand ITESEMS3the
                                                                       '"                         '          - ­
               As previously e.pl.ined in the January 17* memorandum to the 10, the chosen code also
                be l servefs] the purposes of the Small Business Act." SpecificaJ t h e 3
               «nlract. niI office, concluded, through market rese^h, Zi " s m l K z ^ i
               bu,JI1MSes could not perfo™ ^ e n t e r p r i s e ^ services desired .nde I T E S The
               but merely permitted larger' sized companies to qualify as "small" businesscsfcT




                                                                        44 

   purposes of this acquisition. In other words, the cede fosters participation by .null
   b u s i n e s s reserving some prime contracts for small birsirtesses.

   Sf'™t^pIatriaD8UaeC0f'3                         CFR S 1 2
                                                               ' ^ W . " i* unquestionably appropriate

   S S - ^ ^ " ^ 3 e l e C t l n e a N A l C S c o d e - I n ° * c a s e » f IT ES-2S, the -ether
   factors . d e n i e d in SBA's regulations support use of the chosen code
   ^"Snoring these other considerations and feeding exclusively or. Ac type of work the
   DOD IG s analysis runs counter to (he regulation.

   c. The SBA's regulations further provide that "[t]he NAICS code assitned 10 a
  procurernen, and ,ts corresponding SJzc standard iS final unless timely appealed to SBA's
                    ngS a
  2 ^        r           , ^ A p P C a l S mA)> °r U n l e s s S B A a s s i ^ ™ *AICS code or size
  o S e ^ t t l T             r O i n ^ m t 0 S B A ] " ^ ^ § 1 2 1 . 4 0 2 ( 0 . The obvious             i
  of the ™ie i l > n . t thai any Aspme over . choice of NAICS code is raised and
  S S S h 'C               ^       ^ ^            ° f f e T O " a n d , h e G ° - ™ ' < * « * significant
  the choke o 3f N 7 ] ?       ^          ^       " ° f f T E S - - S ' m C h a U m ^ ™ eve? filed against
  rh? A ™ " ° ™ A I C S f c o * = ' T O r d l d ^ J companies otherwise voice dissatisftctwn JZ
   hei A m y ' , cho.ee of code. The NAICS code for ITES-2S became final, a r Z o t s u b L


  K            l           ?           ^   'f e " l d e n t i f l e d in H™***™* published in January
           P                           mUlti Stt
 2La-              '   ?       ™   ^          ' P P r o c e s s ^ " ^ ™ me 1TES-2S procurement

 review m              l       "JnC01,Slstent   Wlth
                                                       " * s P*"t™d intent of SBA's NAJCS code


 s u b T ™ 1 , t T , ^ , 0 r of ^ ^ f " ^ P r e C l U d e " S m a l k ^ S i z e d «™P*>i« from
 ™ S T * ^ S                 ^ , h e n ^ CO<te m e C d y * * * " * « » « "PPer limitforhew large «
 company could be m o r d e r * be considered "small." ftime c o ^ t s wc„ a v m d e ^
 NA.cTcS
 NAICS code that ™     f ^ Tfor"the
                 was selected         r " b y procurement.
                                 t ^ITES*2S   " » S B A U n d e r Although
                                                                  th s i
                                                                    * - ^ the
                                                                           d a rArmy
                                                                                 d for £not
                                                                                     did

S S T ^      K ^ " * * W ° U l d h a V C 1 U a M f l e d "°*« S u d ' 8 s l a " d ^ were not
S £     ? S ^ , t , , n e P K ) p 0 S a I s > a o r f r o m p a r t n c r i n « w i , h other cor.p^ies (e.g
lfES-2S prrme conn-acts. Thus, the IG's assertion (Hat the ctoiw of NAICS code was
somehow detrimental to s l K h small bu, i ( l c s 5 e s i s n o t ^ e l u C ^ ™*


^ S ,      ^ m l P f e s s ' v e ^ " « « ™ "larriatory small business S L ,bc 0 r l t r a ( ,i n 6 e ™j S
The so.citafor. requ.red offerors to guarantee overall small business parti c i p S L " f ' 5
Perc^t of dollars warded. The solicilatior, fnrther required the offeror,     B ID                    y heir
small busmen teammg panners and the M t o t ofcommrtmem to t,sctf»W The 25
                         P C i p a ,ei M
S n t r         *^        ^              ^ S t 0 a V*"^ ^      billiongeared J ^ d s
small bnsmes.es based upon the contract maximum of 520 billion. The mandatory g^u




                                                          45 

     L u L Z ^             Tu        tl0Sf c o m m , m f t y - d i v i d u a l ITES-2S awardees have nc
     guara« 1ee of success at the task order competition k™L Theoretically, a prime extract

     ™u*W>iy small b u « H » participation goal for subcontracting means thai there is a
     S S S T a m ° U m ^ ^ Sma" bUs!neSSeS f0reve^ dolto awa *«* ^ ^
     Re«n. m e B d»iion Lb, Follow Defense Federal Acquisition Regulation Supplement
     £ ^ ^ ^
     Army nonconcurs with the recommendation.

     Army c o m b i n g cfficials did noi improperly fail tojustify consolidating contract 

     W ™ * » m the TES-2S procure™,. It i s t r u e t h a t ,£ A m i y d l ( J ^ j ^ J " 

      onsohdanor, a t the ITES-2S central level. However, ITES-2S is ar, indefiu 7 

  S ^ l            ' qUantJty " I D ' Q " V e h i d e Wilh "° s ^ i f i c - P * * " ^ Sju L e n t s 

  Ur*._rhc S ecircumstance,, a consolidation justification is no, reutured by DFARS 

       ™ A ? £ C O l , t r a c t l c v e l ' A s P ^ o f * « P™«*s for the oversight of services
                         n f
 I S S ?           , '         ™ ™ taKgrwion (OASD Mil) concurred with the Army's 

                               W
 3"T£           TT;                ^h   m d u d c d

                                                       * ' a b s e n c e o f a ™»lid-i°n justified a, ti»
 contract level, and further suggested that the Army establish procedures t o e u ^ c

 mese procedures we in the process of being finalized

 i     S   Z   S         ^     '    ^      e s « b * ITES-2S, work i . p e r f W d < > „ f c b ^ , r f

 approach, (tjne Government places orders for individual requirements " No
 r e q ^ m e m s a K actLla j|y ^ f o ^ M ,„ e c o n t r a c ( ^Ur™.     °  ificd _                         d
 performed m conjunction with the issuance of particular task orders       *^

 TTie fTES-2S contracts provide only a general source of contractual support for

™t,         , t p r e - d e f i n c d m a d v a n ( * of the issuance 0 f the solicitation In [his
procurement rt was contemplated that specific r e q u i e m s would ncTte defineduntil
requiting act.vitjes revested the issuance oftask ordm. Ir short, ITES 2S h a d T
dcfinmve requuements that could havebesn analyzed J for                          L i Z i , ,


ssissssrwouldm* "s
eate ^in sea 

DFARS 270.170-2define "[cjonsolidalion of contract requirements" as "the use of a
ohcttat.or, to obtt.n offers for a single contract or a multiple w a r d comJct to ^ t i fr
                                                                                                        S
that prevtou.ly have b ^ n provided to. or performed for, tha, d e p a Z L ,               ageucv or'




                                                              46 

   ES5S T " m 0 t S S e p a l a , e c o n t r a c , s " D F A ^ 270.170-3 prohibit agencies
   from w w l H k m s "extract requirement, with an animated total value « « * £ ? S 5 5
   mdbnn.. without a determination by the ^              prccurcmetrt execut]vc ^       taS,
   of a consol.dahon acquisition s.rategy
                                       .     w d the b e f i t s of possible alternat^

  ou K t acquisition
  quality,           i T h(erms
           n ^ r ^ 'cycle, C re6lJtoi<>n f u r t h e T
                                and conditions,**"
                                                           ,hlt
                                                                ^ benefit
                                                       and any other " W '«<*,*, cosu,


   i S ^ S , T i r e i , l e n l < ! M S n 0 t m W t ** " S ^ r y require^.*fora consolidation
  justification at the contract level. Even (hough the regulation on consolidation
  p i c t u r e s a, DFARS 270.170-2 refers to JDIQ contracts, i,ta»no ™ E b S r t o a

  the 1TES-2S procurement, ,t was not possible to know j„ advice what if any
  ^ " r * T " eVelMyaJJy * 0 K , e r e < I l h a t 1 l a d P " * 0 " * * ^ perfctmednnder two
  or more separate contracts. Likewise, it w QOt k n o ^ w h e L coLhdated

  iinaer the 1 lhS-2S contracts. Unlike some solicitationfor1DTO contracts the ITFS ?<:

 Wr-K f         r * * ^ » t h e bceffa from a c.nsolidated approach oulwdghZ
 benefits from ahemativetorriractiiiE approaches.                      ™B"me

 o T f ? ™ ! ^ ™ ^ " ^S ^ , h a t ! U p o n a W a r d o f I h e I T E S ' 2 S « " * " * . ordering 

 S    ™      ^            T Z*?*"                     v™?"*™ *>* *° "volve actual, specified 

 of?™™         ' S P ° S S l b l e t b S t * o s e i n d i v i d u a l t a * o c d e r s w i l 1 i"™lvc a consolidation
 10 USC S 2382(c)and DFARS Subpart 207.170. To address this situation, the ITES-2S

 DFARSc^S?            " ^ r r e S P ° a S i b l e f0f """M* wilh the above-referenced
 DFARS consolidation procedures prior to the placement of an order under ITES-2S.

S 6 E ^ ? 'he ^            ? v c ™ ^ l i d a t i o " ™ « ftfih in the Acquisition PlanforITE5­
2 * Prior to the issuance of (he 1TES-2S solicitation, the Armv submitted the P l « fbx


 S     S      7     ? » d r > V « * ' * « * was specifically addressed with OASD Nil
otucials, and authorization to proceed was provided.

It is noted, on page 5 of the Repcn, that there is an assertion that requirements are brins
S a icn node" 7 E S f " ^ t h C ' G ^ ^ ^ W ^ - d S l S S '
  wS o JTES *? A ^ I ^ T ? ' ; C h n 0 l 0 g y ^ "™iKS m fedBizOpps Prior (o the
S S : T T i 2 " e t o " * feP?rt-SUCh ^ ^ r e m e « t s « -™ ccTnsolidated
S S L ? ; ' ? wd «»™.«? ^""P'y "i^Tect Army users are n o t required to use
i « v t « .£    •. i         ^0«>«t.ons. Rather, Army users may choose to acquire Sl)ch
busmess set-as.de. Since Army users are not required to utilize JTES-2S for IT service
B J * " Cam0t ^ a S S u m e d , h i t *" A ^ y IT servi.es are now c o J J E       ^




                                                             47 

Final Report 

 Reference 





p 12
                    S M S K ^ » rg                11
                                                     *"*•? d l e & e d " a * " * * ™ < " ^ r e m e n t s under
                    ^ ™      T T      • " " J * ™ * ™ w.th 8 size standard under $23 million of the
                    «pportim,ty to compete for prime contract awards, ITES-2S does not however^

                    11ES-2S deprive smalJ businesses with* smaller size standard of appropriate
                    opportunTttes Before task orders can be placed under ITES-2S, o E I M                        must

                   just fied, reou.rements would remain a r a b l e for satisfaction throueh alternate
                   contracting su-ateg.es ,„ include the a w a r d of prime contract, to srnah b u s i e s .

                   In sum, Ihe Armj disagrees that a consolidation justification was required, or even that
                  one cofd have been performed, at the fTES-2S contract level.          S r i ^ ^ T
                  have „o, been pre-defined under ITES-2S, and ft* Report is income, in            S     S
                  recrements were consolidated under this procurement. In the circumstaZs te
                    ppropriate fme for addressing any required consolidate j u s t i f i c a . " taauscr is
                  J S r X 8       ^ U l r e m e n ( S for a *»* * * * under JTK-2S. The Army is in the p ™
                  of finahzmg procedures to ettswe that ordering offices comply wjtf, the applicable
                  W o n at that tone. The w o a c h to M n s o l L d a t j o r p u ^ „ ^       ^    ^   ^




                               LC M d i f y
                  S ^ " * "        ' °         ° r reC°rn^te t h e " « S » ™ * « Technology Enterprise
                             C6S C     t a C
                  S S r f T'        °^       * " ^ * e COfT6Ct S C C t i o n 5 4 1 5 1 N o r t h A r ^ c a n Industry

                                                                                          w
                  conKe^lL                       *'    ^    ^ " ^ ******              "       """-«««         5 5 £

                  Army nonconcurs with the recQiumcttdaljoit.


                 ^ S d X S ^ S 0 ^ "* : r m e d ^                 Up0n
                                                                        ^     busincss
                                                                                       "undling, a,
                 rwonimBnded in the Report, because ITES-2S does not consolidate requirements andLis
                 S Z T s V T t T ™ -                      ^ ^ t             states, on ^ e ! J a n d 5 Z ^ 2
                       ,   s    a bun ledcw1trac
                 ™                   ?                < - I" support of its statement on bundling. IhVlG
                               C J
                 T f T l           T t h * " d c r f v e d f r o m l h e ' ^ a n m e n , of Defense, Offie of Small
                 S i X ^ T ' B T e M L , i , i Z a : i ° 1 ' ' B e n e f i t A " a l ^ i s OtriWwk'- S i n g o toe
                 req^rements . The Report erroneously concludes (hat "ITES-2S does consolidate two or




                 S ^ m e n ' s t t ^ H ' U ' a l i 0 n S • "bUnMa@" * ^™d aS
                                                                             " M ™ ^ * ^ or mere
                  cqu emenIs for supplies or serv, ce3 , previously provided or performed under separate
                 waller contract,, uato a solicitation for a single comrac that l i k e l y to b ^ u ^ S f o r




                                                                    48 

   a w d to a small business concern due to" factors that are described in the regulation
   Acqiiialwns for bundled requirements musi be justified by a extracting officer The
   referenced regulations are set forth in FAR 1.101 and FAR 7.107. In order to justify
   S l T h ^rf ^       7 " S h 0 W / h a t " W D « l d d C T i v e -m«.ii«bly substantial b e n e f i t
   and the benefits must be quantified. The regulation that addresses benefit further

  be derived from the bundl.ng, after comparison w i U l fc benefits if requirement « „ ,
  bundled,are equivalent to "(1) [t]en percent of the estimated contract or order value
  (including options) .f the vdm, is $86 milhcn or less; or (2) [f]ive percent oHhe
  estimated contract or order value (including options) orS8.6 million, whichever is
  greater, if the value exceeds $86 million." FAR 7.107(b). 1„ addition the regulation
  provides that "(i]nassessing w h e t h e f COEt ^ ^              ^ ^ ^ l ^ f

  Sl^ U*T mUSJt W"1Sider 'he 00Bt that W been ^ ^ °r> *J«« <*• «
          S by sma11 busi ess wnceras foc tl
  SR?S                      "                  ™ e w similaf ™ k •"
  s S L 2 ! ^ ™ t C O n ^ K "-nsclidation under the regulations or, bundling fcr reasons
  similar to those discussed m the content of the DFARS procedures on consolidation
  Specific requirements are not pre-defined at the contract level under ITES-^S Absent
  h i v e K w Z l^ T f               ™        it is no. possible » determine if requirement*
  <cZM Zf              ? T       T ™ , f l , k r e 0 n t l a c , s ' N o r i s i ( f ^ i b l e > *" ^ t s situation,
  to quanofy and compare the benefils from performing a bundled effort with the benefits
  from performing the "same or similar work" when not bundled.

 Under the 1TES-2S procurement, work will be specified at (he task order level The
 S     l     X      r       ^          conducting a s m a l l business bundling justification for
 l ^ f       ?   If " " . S S ^ * 1 - * " m e f w t h e aPP»i«"'«> ^ t h e bundling regulation in
 te task order level with the regulations governing 5maU business b a l i n g . The 1TES
 2Sordering g u ,de and ASCP it-eman web site « i | | both include nonces t & ordering
 offices are responsible for complying with the small business bundling regulation prior B
                                                                                    p c IC
 the placement of an order under ITES-2S.                                  ^


i f ! t r i 0 f ' t r r E S ; 2 S - i S , r ' . " b u n d l c d W n , r a c t F A R 2 101 defines "bundling- bj t c m l s
of a ^ c i t a t i o n that „ likely to be "unsuitable for award to a small business ™                                    "
 J he ITES-2S procurement does not meet this regulatory standard. The procurement was
detcmuned to suitable for performance by small businesses, and a number 0 f s ™
business concerns submitted proposals. Ultimately, awards were made to five offerors
deemed to be small businesses by the SBA.                                                                    °ne™s


 E S f i f ? " P f eV !u US a r g l l m ™ t s * - » « requirements are no. bundled are rejected, tore is
ju ..fiction for the consolidation consistent with regulatory nnd GAO C1CA bundling

Ml range of services and w | H b ( m necessary for (he Army to satisfy its support of the
J o Z H T f ™ * * ? W * ™ * B - . s Jvfcal CommandStn,,
Ccmmumcattons, Computers, and Information Management (C4IM) services worldwide




                                                               49 

  JL opmcm, deployment, o p e r a t e maintenance and sustamment requirements for
  C4IM s e r v e s worldwide. these solutions must bo uniform Otherwise, operatici
  are"S™           v S U 5 t a l t u n e n ' 1 0 l }s h e > ^ P ^ ^ r l y where joint w a r t ^ operations
  limited number of vendors is the best way (o ensure this unifoimily "

 E ^ I ^ T ' T 2 : ^ recommelld l h a t '•* D i ^ r , Am,, Small and Disadvantaged
 Bu mes Ijt.lization develop a standardized contract review process for small business
 that veni.es c o ^ p W e wrth Ihe Federal Acquisition f i l i a t i o n requirements.

 £ Z 2 r i £ ! * ^ T l . A s l ™ ^ ^ review process already exists to ensure
 2 " ' :             ' " k r a ! A c f J s i t i o n ^ * ™ . For example, the A m y Small
 Business Office participates on the Army Service Strategy Panel (ASSH for
 procurements that exceed S500 million. However, in accordance with your
 ^ommendat.oo, the Army Small B u s i e s Office will develop a more robus. review
 process to increase internal controls relative to proper NA1CS code seledion, bundling

 contracts may have on the small business community.

New procedures will add independent senior small business staff review on enterprise
requirements, to bs conducted prior ta the rcv le w and strategy briefing with Z T Z
procurement offlcals responsible for the strategy, solicitalion, and award.

TT^ Army Small B u s i e s Office will request that each Army ordering agency strengthen
                S
S    ™      S        » . ™ * i c t « * « « « 'O Ibc ordering guidelines relative , T
consolidating and bundling requirements.


S n d b m j s l T - S r l * ' 6 ' r ' u T ™ " , h a t ^ ^ ^ s i m i ^ requirements to these
a ™ " h 2 S i l l , , ! ! y              ^SmeS$    ° f f i C C Wil1 reque5t a t e v i c w «f sltemative
approaches to inchtde ihose mentioned in your report, as we move forward with other


S S i o b ^ oo»***-TheAnnyremaicsvi^i,8ni ^ <=«-mi««i to u « 2 2 r
^   "    ^     a W a r d s f r Sma11 b u s L
                            "                " « ^ f> * * ™™'™tn extent praeticable. Your
comments and recommendations are of significant vatne to the Army Small BusmesT




                                                  10




                                                       50 

                              DEPARTMENT OF THE ARMY
                        OFFICE W TH£ ASSISTANT SECRETARY OF THE JWMY 

                             ACQUISITION LOOISTICS AN D IE CHNOLOGY 

                                       iHUiFWTPeHTAOON 

                                   WASHINGTON DC J031M1C3 



                                      1 7 JAN 2007
SAAL-PP


MEMORANDUM FOR OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT
                 OF DEFENSE, ATTN: MS. JACQUELINE L. WICECARVER,
                 PROGRAM DIRECTCH. ACQUISITION AND CONTRACT
                 MANAGEMENT, 4-00 ARMY NAVY DRIVE.
                 ARLINGTON, VA 222Q2

SUBJECT: Information Technology Enterprise Solulions-2 Services Contracts
         <ITES£S>


        I am writing in response to your memorandum requesting that the U.S. Army
delay award of trie ITES-2S contracts due to issues identified by your office in a recenl
audit. Specifically, your memorandum expresses concern that the North American
Industry Classification System [NAICS) code chosen for ITES-2S may have been
incorrect You contend that the chosen code "placed appropriately qualified small
businesses at a serious competitive disadvantage." and that the issue may generate
"further protests and litigation."

      The U,S, Army awarded all of the ITES-2S contracts prior to receipt of your
memorandum. Eleven awards were made on April 14, 2006, and an additional five
awards were made on December 4, 3006. Thus, it is not possible fof the U.S. Army to
comply with your request to delay the awards. More fundamentally, though, the U.S.
Army disagrees wilh your analysis oF the NAICS coda issue.

       As noted in your memorandum, a contracting officer typically selects a NAICS
code which best matches the work performed under tlie acquisition. This poses a
challenge for large Indifinite Delivery, Indifinile Quantity whicies such as ITES-2S,
which are extremely broad in scope and have no defined requirements until individual
(ask orders are placed. Quite simply, the U.S. Army car only make its best estimate as
to what wotk will be performed under ITES-2S. Nor is there any single code that
appropriately covers the complexity and the woitdwide magnitude of the ITES-2S
acquisition. In this circumstance, Iho U.S. Army's contracting officer made the most
appropriate crwice among various possible codes, selecting NAICS code S17110
(Wired Telecommunications Carriers).

      The type of work performed under the acquisition is not the only consideration in
choosing a NAICS Code. Rather, the applicable regulations provide that u[o]ther factors
considered Include previous Government procurement classifications of the same or




                                               51 

                                           -2­


similar products or services, and the classification which would beet serve the purposes
o- the Small Business Act.'" Tille 13 Code of Federal Regulations (CFR) Section
121.402(b). In the case of ITES-2S, these additional considerations support use of the
chosen code.

       Other similar procurements-such as the Air Force's Netwont-Centric Solutions
(NETCENTS) contracts, the Communications-Electronics Life Cycle Management
Command's Total Engineering and Integration Services (T&S) I and II contracts, and
the U.S. Army's predecessor to ITES-2S contract, ITES-1 S-have all used the same
NAICS code as was used for the ITES-2S contract. Although the Small Business
Administration (SBAj size standard corresponding to NAICS code 517110 is larger than
the standards associated with many other NAICS codes, the contracting officer's choice
of NAICS code 517110 was appropriate and ultimately did rot exclude smaller small
businesses Irom participating in the acquisition.

       The selected code's appropriateness was confirmed by ample market research.
Based on thai research, the ITES-2S contacting officer concluded that a NAICS code
with a smaller size starxiard would rave slanted the ITES-2S awards toward companies
that were unable to "provide the deptrVbreadlh of task areas required to meet enterprise
requirements .„ [and] manage large numbers of task; orders."

        By using the MAICS code of 517110. with its larger size standard ol 1,500
employees, the U.S. Army chose a code that best described the principal nature of the
services being acquired and pe unified small bus nesses meeting the larger size
standard to compete for contract awards. As proof that small businesses staffed to the
larger size standard could perform the work, please note the fact thai a total of five
prime contracts have been awarded to small businesses that qualify under the 1,500
employee size standard. Although use of NAICS code 517110 permitted participation
by small businesses meeting the larger size standard, without excluding other small
businesses, no proposals were received from any small business that would have
qualified under a mars restrictive size standard, and thus no contracts wens awarded to
any such fitms. Finally, the use of this code was approved by both U.S. Army and
Department of Defense Small and Disadvantaged Business Utilization offices, as well
as the SBA, prior to the issuance of BIB solicitation. Moreover, the Senate and House
Smalt Business Committee staHs, were briefed on the selected NAICS code without a
negative response.

         You maintained that "Small Businesses that best met the purpose of the services
to be acquired were lorced to compete against businesses greater than seven times
their size,™ and that the choice of NAICS code may result in "further protests and
litigation." The U.S. Army disagrees with these assertions In the course of choosing
NAICS code 517110, the contracting oflteer concluded, in effect, that smaller small
businesses did not best meet the purposes of the ITES-2S procurement, Although any
small business,




                                           52 

                                           -3­


regardless of size, could have submitted a proposal, the U.S. Amny did not, In any
event, receive any proposals Irom small businesses that would nave qualified under a
rnure restrictive size standard. Thus, There is no basis to conclude that smaller
companies were placed at any competitive disadvantage. As any small business could
have competed for the ITES-2S procurement, there is likewise no basis to conclude that
there was irnproper bundling, or thai a justification for bundling was required, in
accordance with federal regulations. As a result, your assertion that "by not including
legitimate small businesses in Hie award, ITES-2S is a bundled contract" Is not well-
founded.

        Lastly, further litigation relating to the NAICS issue is unlikely. The choice of
NAiCS code Is not a proteslable issue. Rather, the forum thai adjudicates such matters
is the SBA. According to SBA regulation, arty challenge to the Contracting Officer's
choice of NAICS cods must be raised within 10 days of the issuance of the solicitation.
Title 13 CFR Section 134.304(a)(3). Absent such a challenge, '[t]he NAICS code
assigned to a procurement and its corresponding size standard is final," Title 13 CFR
Section 121.402(c). There was no challenge to the choice of NAICS code for ITES-2S
and the deadline for doing so has long since expired. Therefore, the NAICS code for
ITES-2S became final, and not subject to further review, as of September 2005.

       In sum, the U.S. Army is convinced thai its choice of NAICS code was correct.
The chosen code is not only a reasonable choice (or the broad requirements that will be
performed under TTES-25. it is also consistent with the code selected for other similar
procurements and supports the purposes of the Small Business Act by prompting smaJl
business participation. Finally, the time for challenging the choice of the NAICS code
under the applicable regulations has expired.




                                            Claude M Bolton, Jr. J 

                                      Assistant Secretary of Ihe Rrmy 

                                   (Acquisition, Logistics and Technology) 





                                            53 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Sean A. Davis
Charles S. Dekle
Michael T. Burger
Frank Niranjan
Tam Phan
Susan H. Bachle
Adam J. McLaurin
Sherry A. Nuckolls
Meredith H. Johnson
